<html>
<title> - SW FOREST HEALTH ACT; BENTONITE MINING IN WYOMING; PUEBLOS OF SANTA CLARA; AND MT. NAOMI WILDERNESS</title>
<body><pre>[Senate Hearing 108-10]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-10
 
  SW FOREST HEALTH ACT; BENTONITE MINING IN WYOMING; PUEBLOS OF SANTA 
                    CLARA; AND MT. NAOMI WILDERNESS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 32                                 S. 246

                           S. 203                                S. 278


                                     
                               __________

                           FEBRUARY 27, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     3
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Covington, Dr. W. Wallace, Regents' Professor and Director of the 
  Ecological Restoration Institute, Northern Arizona University..    25
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     2
Gonzales, John, Governor, San Ildefonso Pueblo, Santa Fe, NM.....    10
Gutierrez, Denny, Governor, Santa Clara Pueblo, Espanola, NM.....     5
Hughes, Jim, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    16
Kyl, Hon. Jon, U.S. Senator from Arizona.........................    24
Reaves, Jim, Director, Vegetation Management and Protection 
  Research, Forest Service, Department of Agriculture............    21
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    45


  SW FOREST HEALTH ACT; BENTONITE MINING IN WYOMING; PUEBLOS OF SANTA 
                    CLARA; AND MT. NAOMI WILDERNESS

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 p.m., in room 
SD-366, Dirksen Senate Office Building, Hon. Larry E. Craig 
presiding.

  OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM 
                             IDAHO

    Senator Craig. Good afternoon, everyone. The Subcommittee 
on Public Lands and Forests of the full Energy and Natural 
Resources Committee will be convened.
    I want to thank each of and all of you for coming to the 
hearing today. As Senator Bingaman comes in, our ranking 
member; and as the chairman of the committee, Senator Domenici, 
comes in, I will certainly recognize them. They are hoping to 
attend.
    I know that Senator Domenici is delayed at another meeting. 
We expect Senator Ron Wyden also to be here, who is my ranking 
on the subcommittee. We have worked closely together over the 
years on forestry issues and other public land resource issues 
and he has shown his intent to be here today.
    This afternoon, we will receive testimony on a number of 
important bills. And I want to thank each of you for coming to 
testify today, especially those who traveled from out of their 
States here to your Nation's capitol.
    I will be asking the chairman and the ranking member to 
give their statements as they come, and Senator Wyden, if he is 
able to make it.
    Due to our late start--and there is the ranking member 
now--and the travel schedule of the governors, I want to ask 
each of you to keep your statements as short as possible. 
Governor Gutierrez of the Santa Clara Pueblo in New Mexico and 
Governor Gonzales of the San Ildefonso Pueblo in New Mexico are 
here to testify on S. 246, Senator Bingaman and Senator 
Domenici's bill to provide that certain Bureau of Land 
Management lands will be held in trust for the Pueblo of Santa 
Clara and the Pueblo of San Ildefonso in the State of New 
Mexico. Certainly, welcome to both of you.
    I also want to recognize Dr. Wally Covington of Northern 
Arizona University, who is here today to testify on S. 32, 
Senator Kyl's bill to establish institutes to conduct research 
on the preservation and restoration of fire dependent forests 
and woodlands in the interior West.
    We will also be examining two other important legislative 
proposals, including S. 203, Senator Enzi's bill to open 
certain withdrawn lands in the Big--in Big Horn County, Wyoming 
to--yes, there we go--to locatable mineral development for 
Bentonite Mining in S. 278.
    Senator Bennett's bill to make adjustments to the 
boundaries of Mount Naomi Wilderness area. I have Senator 
Bennett's statement for the record. He, I believe, will be 
unable to attend. We will be accepting a certain--a number of 
statements on these bills that we will include in the record of 
other members.
    Finally, it is good to see Jim Hughes, the Deputy Director 
at the Bureau of Land Management, and Jim Reaves, Director of 
Education Management and Protection Research, the U.S. Forest 
Service, are here today to provide our subcommittee with 
testimony on these bills on behalf of the administration. So 
welcome to all of you.
    After opening statements, we will ask all of you to come to 
the table. I understand that some of the governors will need to 
leave early to catch flights, so we will attempt to expedite it 
so you do not miss those flights. We all understand how 
important that is, so, again welcome to all of you.
    And before we open up for testimony and invite you to the 
table, let me turn to our ranking member, Senator Bingaman, for 
any opening comments he would have.
    [The prepared statements of Senators Domenici, Smith, and 
Bennett follow:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Senator Craig, Thank you for allowing me to make this statement, I 
will limit my comments to S. 246.
    I want to welcome both Governor Denny Gutierez, of the Santa Clara 
Pueblo, as well as Governor John Gonzales, of the San Ildefonso Pueblo. 
Thank you both for making the long trip to Washington, DC.
    S. 246 is a bill to provide that certain Bureau of Land Management 
land shall be held in trust for the Pueblo of Santa Clara and the 
Pueblo of San Ildefonso in the State of New Mexico.
    In 1988 the Bureau of Land Management declared approximately 4,484 
acres located in the eastern foothills of the Jemez Mountains, 
including a portion of Garcia Canyon, to be ``disposal property.''
    The Garcia Canyon surplus lands qualify for disposal partially 
because the track is an isolated piece of land almost inaccessible to 
the public.
    It is bordered on three sides by the reservations of Santa Clara 
Pueblo and the Pueblo of San Ildefonso, and by U.S. Forest Service land 
on the remaining side. The only road access consists of unimproved 
roads through the two Pueblo's reservations.
    I understand that currently there are no resource permits, leases, 
patents or claims affecting these lands; nor is it likely that any 
significant minerals exist within the Garcia Canyon transfer lands.
    The Garcia Canyon surplus lands constitute an important part of the 
ancestral homelands of the Pueblos of Santa Clara and San Ildefonso.
    Based upon these boundaries, about 2,000 acres of the Garcia Canyon 
surplus lands is within the aboriginal domain of the Pueblo of San 
Ildefonso. The remaining 2,484 acres are in Santa Clara's aboriginal 
lands.
    The BLM and Interior Department for years have supported the 
transfer of the land, provided the Pueblos agree upon a division of the 
Garcia Canyon surplus lands.
    In response, the two Pueblos signed a formal agreement affirming 
the boundary between the respective parcels on December 20, 2000.
    The Pueblos of Santa Clara and San Ildefonso have worked diligently 
in arriving at this agreement.
    They have garnered supporting resolutions from Los Alamos, Rio 
Arriba and Santa Fe Counties, and the National Congress of American 
Indians. They have also obtained supporting letters from the National 
Audubon Society's New Mexico State Office, the Quivira Coalition and 
the Santa Fe Group of the Sierra Club.
    This unique situation presents a win-win opportunity to support 
more efficient management of public resources while restoring isolated 
tracts of federal disposal property to Tribal control.
    We want to secure Congressional authorization to transfer control 
of these lands to the two Pueblos, with legal title being held in trust 
by the Secretary of the Interior for each of the Pueblos for their 
respective portions of the property.
    I urge you to support this legislation.
                                 ______
                                 
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon

    Mr. Chairman, I appreciate your holding today's hearing on S. 32, 
introduced by Senator Kyl, which would establish research institutes to 
examine the prevention of wildfires and restoration of fire-affected 
ecosystems in the Interior West. I fully agree with the aims of this 
legislation, namely to reprioritize the roles of science, scientific 
application, and partnerships with universities in the broader 
discussion of forest health and rehabilitation.
    The increasing success of appeals and litigation of fuels reduction 
and salvage operations lead us to believe that there is an imminent 
need for additional and more comprehensive scientific principles to 
defend active forest health management on public lands. In response to 
a domino series of such appeals in Oregon last year, Congressman Walden 
and I requested that the Oregon State College of Forestry and the 
Institute for Natural Resources develop a balanced and comprehensive 
report concerning the restoration of post-fire ecosystems. Since then, 
Dean Hal Salwasser has been working with his faculty, federal agencies, 
conservation groups and private forest land owners to respond to our 
request. Dean Salwasser recently prepared a detailed analysis outlining 
a work proposal, funding needs, and scope. I would ask that a copy of 
his proposal be entered into the record.
    I look forward to working with Senator Kyl and my other colleagues 
on this Committee toward creating the scientific underpinnings needed 
to effectively implement the National Fire Plan and the Western 
Governor's Strategy.
                                 ______
                                 
  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah

    I thank Chairman Craig, Senator Wyden and the Subcommittee on 
Public Lands and Forests for holding today's hearing on S. 278, the 
Mount Naomi Wilderness Boundary Adjustment Act. I appreciate the Senate 
moving forward with this important legislation so quickly. I also 
welcome the support of Representative Rob Bishop, who has introduced 
companion legislation in the House of Representatives.
    The legislation the subcommittee will consider today will revise 
the boundaries of the Mount Naomi Wilderness in order to remove 
incompatabile uses from the wilderness area and to better reflect the 
topography of Mount Naomi.
    Included in the Utah Wilderness Act of 1984, the Mount Naomi 
Wilderness is one of Utah's largest wilderness areas at over 44,000 
acres. It is a very scenic area and contains some of the best examples 
of alpine terrain in the intermountain west. There are large 
populations of moose, elk, and deer. It is an area truly worthy of its 
designation.
    Unfortunately, the boundaries were drawn in such a way as to have 
some unintended consequences. Running through the wilderness is a 
utility corridor, containing a major electricity transmission line. 
This power line serves the residents of Logan and the whole south end 
of Cache Valley. Because of restrictions in the Wilderness Act of 1964, 
maintaining and repairing the power line will be very difficult in the 
future.
    Also impacted by Mount Naomi's boundaries is one of Utah's most 
popular hiking and mountain biking trails: the Bonneville Shoreline 
Trail. The Bonneville Shoreline Trail, when completed, will be over 250 
miles in length. Starting in Nephi and heading north into Idaho, the 
trail will follow the shoreline of ancient Lake Bonneville. The 
alignment of the trail is planned to go through a small part of the 
Mount Naomi Wilderness. While hikers and equestrian users would be 
permitted to use this section of the trail, mountain bikers would be 
prohibited under wilderness restrictions. The city of Logan has tried 
to work to change the alignment to adjacent private property to no 
avail.
    This legislation would redraw the boundaries of the Mount Naomi 
Wilderness to allow for the power line to be accessed and properly 
maintained and would allow continuity in the use of Bonneville 
Shoreline Trail by all outdoor enthusiasts. The acreage of this 
wilderness area would not change, thirty-one current acres would be 
excluded and thirty-one new acres would be added. The newly added lands 
will be managed pursuant to the Utah Wilderness Act of 1984.
    This legislation was originally offered in the 107th Congress by 
former Representative Hansen. It passed the House of Representatives 
but was never acted upon by the Senate. Because of the common interest 
in protecting this area from inconsistent uses and because of the need 
to properly maintain the transmission line, S. 278 has garnered the 
support of the city of Logan, Cache County, and the United States 
Forest Service. In light of the benefits provided by and community 
support for S. 278, I look forward to working with my Senate colleagues 
to pass this legislation this year.
    Again, I thank Chairman Craig and Senator Wyden and the 
Subcommittee on Public Lands and Forests for holding today's hearing on 
the Mount Naomi Wilderness Boundary Adjustment Act.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Well, thank you very much, Mr. Chairman. 
Thank you for holding the hearing. I want to briefly speak 
about the two bills that are of particular interest to my State 
this afternoon--the people in my State.
    S. 246, as you indicated, is a bill that Senator Domenici 
and I have co-sponsored. It is very important to the Pueblos of 
Santa Clara and San Ildefonso. I am very happy that the 
governors of those two pueblos are here to speak to us today, 
Governor Gonzales and Governor Gutierrez. And I look forward to 
hearing their views.
    During the 107th Congress, we did pass this legislation, or 
essentially a bill identical to this legislation, through the 
Senate by unanimous consent. As far as I know, there is no 
opposition.
    The Bureau of Land Management has worked with us in the 
development of this bill, and I think they believe this is an 
appropriate transfer, so I hope we can proceed on that. In my 
view, the pueblo has done a tremendous job of helping to craft 
this legislation.
    The other bill I would mention is the one you mentioned 
that Senator Kyl has, S. 32. I know Dr. Covington is here to 
testify on that bill. It would establish three wildfire 
prevention research institutes in the Southwest. I think this 
is a very, very important initiative.
    We have a very serious problem in our State as does Arizona 
and all of the Southwest, and, of course, your State as well, 
with the problem of wildfire. We need to deal with it in a more 
effective way than we have. I hope this initiative will help us 
to do that, so thank you very much for having the hearing.
    Senator Craig. Well, thank you very much, Senator. Now, I 
would ask all the witnesses if you would please come to the 
table and take your places.
    [Pause.]
    Senator Craig. Usually out of courtesy, we offer the 
administration the opportunity to testify first. But today 
because of timing and recognition of some folks needing to get 
to an airport, we are going to turn to our two governors first 
and ask them if they would proceed with their testimony on the 
legislation. And we will simply do it by order of your seating.
    And so I would ask you, Governor Gutierrez, if you would 
start with your testimony please.

  STATEMENT OF DENNY GUTIERREZ, GOVERNOR, SANTA CLARA PUEBLO, 
                          ESPANOLA, NM

    Governor Gutierrez. Thank you.
    Senator Craig. And pull the microphone up to you, and there 
should be a button on the face of it down on the stand to 
activate it. Thank you.
    Governor Gutierrez. Honorable Chairman Craig and members of 
the subcommittee, good afternoon. I wish to thank you for 
holding this hearing on S. 246 and inviting Santa Clara Pueblo 
to testify. I ask that the full text of my written comments be 
entered into the record.
    I am Denny Gutierrez, governor of the Pueblo. I have with 
me, Lieutenant Governor Edwin Tafoya, former Governor Gilbert 
Tafoya, Lance Monitor, Jeff Lyon, and tribal consultant Elvin 
Warren.
    And the Clara Pueblo strongly supports S. 246 and greatly 
appreciates the efforts of Chairman Domenici and ranking member 
Bingaman to secure passage of this legislation.
    I proudly represent the 2,500 members and residents of 
Santa Clara Pueblo, a federally recognized Indian tribe. We are 
situated in northern New Mexico on just over 51,000 acres of 
land in trust or restricted fee status, stretching from the Rio 
Grande Valley to the Jemez Mountains.
    We have resided in this region since time immemorial. S. 
246 will support more efficient management of public resources 
while restoring control of approximately 4,484 acres of 
isolated surplus Federal land to the Pueblos of Santa Clara and 
San Ildefonso.
    I am happy to say that the proposed transfer enjoys wide 
and diverse public support. This includes the Department of the 
Interior, State BLM officials, the Governor of New Mexico, the 
counties of Santa Fe and Rio Arriba, in which these lands are 
located, and the neighboring county of Los Alamos, the National 
Congress of American Indians, the Sierra Club, the National 
Audubon Society, the Wilderness Society, and the Quivira 
Coalition. Copies of documents demonstrating this support have 
been submitted along with our written testimony.
    Part of the reason for this overwhelming support is that in 
1998--1988, the U.S. Bureau of Land Management determined that 
the lands at issue were difficult and uneconomic to manage as 
part of the public lands and decided to dispose of them. They 
reached this decision after extensive public consultation.
    This land is isolated and almost inaccessible to the 
general public. It is surrounded on three sides by the 
reservations of Santa Clara Pueblo and the Pueblo of San 
Ildefonso, and by U.S. Forest Service lands on the remaining 
side.
    The only road access consists of unimproved roads through 
the two pueblo reservations. These factors have resulted in 
minimal or no public usage of his land in recent decades.
    It does not contain any significant public values or 
natural resources. Currently there are no resource permits, 
leases, patents, or claims affecting this land.
    The Clara Pueblo continues to hold original title to about 
2,484 acres of this land. Our ancestral boundaries are defined 
by geographical landmarks, cultural sites, and other distinct 
places where traditional Tewa-language names and locations have 
been passed down in our pueblo through the generations.
    These lands continue to hold important cultural and natural 
resources for our pueblo. The proposed legislation contains 
provisions that protect any valid right of way lease, permit, 
mining claim, grazing permit, water right, or other right or 
interest of a person or entity other than the United States on 
these lands that is in existence before the date of enactment 
of this act. However, to our knowledge there are no present 
lease or permit holders within these lands.
    Further, the legislation contains provisions to promote 
stewardship, conservation, as well as our traditional and 
customary uses of the property, which our pueblo include but 
not are limited to, hunting, livestock grazing, gathering and 
harvesting natural materials for personal and community use as 
well as to produce products for trade or sale, and cultural 
practices.
    Finally, no new commercial developments will be allowed on 
these lands after transfer to the two pueblos. The return of 
these 2,484 acres to Santa Clara Pueblo will enable us to 
better control our resources in the area, protect our culture, 
and provide for our future generations.
    In closing, I ask the subcommittee for favorable and 
expeditious consideration of S. 246 and welcome any questions 
you may have. Thank you.
    [The prepared statement of Governor Gutierrez follows:]

 Prepared Statement of Denny Gutierrez, Governor, Santa Clara Pueblo, 
                               New Mexico

    Honorable Chairman Craig and members of the subcommittee, my name 
is Denny Gutierrez and I am the elected Governor of Santa Clara Pueblo, 
a federally recognized tribe located in northern New Mexico. It is an 
honor to appear before this Subcommittee today to discuss the reasons 
the Pueblo of Santa Clara strongly supports S. 246. The Pueblo thanks 
you, Mr. Chairman and Members of the Subcommittee for holding this 
hearing. We would also like to express our sincere appreciation to our 
senators, Chairman Pete Domenici and Ranking Member Jeff Bingaman, for 
their leadership in crafting and introducing this legislation to 
restore to our people an important part of our ancestral lands which 
are currently identified for disposal by the federal government. We 
also thank Representatives Tom Udall and Heather Wilson for sponsoring 
the companion legislation H.R. 507.
    I am here today proudly representing the 2,500 members and 
residents of Santa Clara Pueblo. Santa Clara maintains both a 
traditional and constitutional form of government: our Constitution was 
adopted in 1935 pursuant to the Indian Reorganization Act. We are also 
the only Self-Governance tribe in New Mexico. We are situated about 
twenty-six miles north of Santa Fe. Annually we are fortunate to 
receive thousands of visitors from around the United States and the 
world who seek our traditional Blackware and Redware pottery. Until the 
devastating Cerro Grande Fire we welcomed tens of thousands of people 
to experience the breathtaking Puye Cliff Dwellings, our ancestral 
village that is also a National Historic Landmark.
    For millennia the people of Santa Clara have known the Jemez 
Mountains as our home. Since about the 1300's our ancient community--
which we call Kha P'o Owingeh in our native Tewa language--has stood at 
the confluence of the Rio Grande River and a small river of great 
importance to us, the Santa Clara Creek. Our people have lived in the 
region for thousands of years. Prior to settling in this village, our 
ancestors occupied Puye and several other pueblos and cliff dwellings 
just nine miles to the west on the Pajarito Plateau that fans out east 
from the Jemez Mountains. The boundaries of our ancestral homeland are 
defined by geographical landmarks, cultural sites, and other distinct 
places whose traditional Tewa-language names and locations have been 
known and passed down in our Pueblo through the generations.
    Currently, Santa Clara Pueblo holds just over 51,000 acres of our 
ancestral homeland; comprised principally of two patented Spanish land 
grants and an Executive Order Reservation created in 1905 by President 
Theodore Roosevelt. This land base stretches from an elevation of 5,540 
feet in the Rio Grande Valley to 10,761 feet in the heights of the 
Jemez Mountains.
    Unfortunately, Santa Clara Pueblo has suffered the loss of our 
ancestral lands located outside our reservation. S. 246 will partially 
address this loss by declaring that all right, title and interest of 
the United States in and to two separate but adjacent tracts of land in 
New Mexico currently identified for disposal by the Bureau of Land 
Management, totaling approximately 4,484 acres, shall be held by the 
United States, subject to valid existing rights, in trust for the 
federally-recognized Indian Pueblos of Santa Clara and San Ildefonso, 
respectively. These lands (hereinafter, ``the Garcia Canyon surplus 
lands'') are located in the eastern foothills of the Jemez Mountains in 
north central New Mexico, and include portions of Garcia and Chupadero 
Canyons. They are situated in Township 20 North, Ranges 7 and 8 East, 
N.M.P.M. We are attaching as Exhibit 1 * a map showing the location of 
the Garcia Canyon surplus lands.
---------------------------------------------------------------------------
    * The exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
    The proposed transfer enjoys widespread support in New Mexico and 
even from some national organizations. The Administration supports this 
legislation, Mr. Chairman, as is evidenced by a June 20, 2002 letter by 
U.S. Department of Interior Assistant Secretary Rebecca Watson 
[attached hereto as Exhibit 2]. Linda S.C. Rundell, the State Director 
of the U.S. Bureau of Land Management's New Mexico State Office 
provided a letter dated February 24, 2003, which expressed support for 
legislation transferring the Garcia Canyon surplus lands to our two 
Tribes [attached as Exhibit 3]. These followed a previous letter of 
support dated May 18, 2001 from Rich Whitley, the Associate State 
Director of the U.S. Bureau of Land Management New Mexico State Office 
[attached hereto as Exhibit 4].
    The State of New Mexico also supports the transfer of these lands 
to our Pueblos, as evidenced by the letter from Governor Bill 
Richardson dated February 18, 2003 [attached hereto as Exhibit 5]. Rio 
Arriba County, in which 3/4 of the land is located, adopted Resolution 
2002-15 on August 30, 2001 supporting the transfer of these lands to 
the two Pueblos [attached hereto as Exhibit 6]. The remaining 1/4 of 
the land is situated in Santa Fe County, who similarly adopted 
Resolution Number 2002-35 on March 27, 2002 in support of the proposed 
transfer [attached hereto as Exhibit 7]. The neighboring County of Los 
Alamos also approved a resolution, Number 02-03, supporting the land 
transfer [attached hereto as Exhibit 8].
    In addition, the National Congress of American Indians, the oldest 
and largest national organization of American Indian and Alaska Native 
tribal governments, approved Resolution #SPO-01-083 supporting 
legislation to return the Garcia Canyon surplus lands to the two 
Pueblos [attached hereto as Exhibit 9]. In addition, we have received a 
letter of support dated April 11, 2002 from the Sierra Club, the 
National Audubon Society and the Quivira Coalition [attached hereto as 
Exhibit 10]. The Wilderness Society has also expressed its support for 
our efforts in a letter dated October 17, 2002 [attached hereto as 
Exhibit 11].
    One reason for this widespread support is that in 1988 the Bureau 
of Land Management (hereinafter ``B.L.M.''), pursuant to the Federal 
Lands Policy and Management Act (43 U.S.C. 1707 et seq., hereinafter 
``F.L.P.M.A.''), declared these 4,484 acres to be ``disposal 
property.'' The Taos Resource Area Management Plan identified lands for 
disposal that it considered ``scattered and isolated'' and where the 
B.L.M. concluded that transferring these lands out of its control may 
help ``. . . achieve more efficient management and utilization of 
public resources'' (p. 2-11, 1-6). Further, these lands met the 
specific ``disposal criteria'' that include disposing of land that ``. 
. . because of its location or other characteristics is difficult and 
uneconomic to manage as part of the public lands.'' The designation of 
the Garcia Canyon surplus lands as disposal as part of the B.L.M.'s 
land use planning process involved extensive consultation with the 
public, permittees and lessees and relevant federal and state agencies.
    The Garcia Canyon surplus lands qualify for disposal partially 
because the tract is an isolated tract of land almost inaccessible to 
the general public. It is surrounded on three sides by the reservations 
of Santa Clara Pueblo and the Pueblo of San IIdefonso, and by U.S. 
Forest Service land on the remaining side. The only road access 
consists of unimproved roads through the two Pueblos' reservations. 
These factors have resulted in minimal or no public usage of the Garcia 
Canyon surplus lands in recent decades. They have also complicated 
proper supervision of the tract by the B.L.M.
    The Garcia Canyon surplus lands do not contain any significant 
public values or natural resources. The tract is characterized by steep 
canyons and occasional flat mesas with pinon and juniper trees and 
sparse gramma grasslands coverage. While limited pumice mining occurred 
there during the 1960s it is unlikely that any significant minerals 
exist within the Garcia Canyon surplus lands. Currently there are no 
resource permits, leases, patents or claims affecting these lands.
    The Garcia Canyon surplus lands contain a limited amount of poor 
quality forage for livestock, and have not been actively grazed for 
over fourteen years.Although the area was permitted for grazing after 
World War II to an absentee rancher, repeated droughts, lack of water 
sources and difficulty with maintaining trails to the mesa tops made 
grazing the area almost impossible, such that the allotment was 
frequently left ungrazed or undergrazed and never held more than 31 
cows in one year. Finally, in December of 1989 the B.L.M. cancelled the 
grazing permit for non-use. We understand that the B.L.M. currently 
does not intend to issue a grazing permit for the Garcia Canyon surplus 
lands.
    Yet to our Pueblo the Garcia Canyon surplus lands constitute an 
important part of our ancestral homelands. Based upon our traditional 
boundaries, approximately 2,484 acres of the Garcia Canyon surplus 
lands are Santa Clara's aboriginal lands. The remaining 2,000 acres is 
within the aboriginal domain of the Pueblo of San IIdefonso. Our two 
Pueblos retain ``aboriginal'' or ``Indian title'' to our respective 
portions of the Garcia Canyon surplus lands and through the proposed 
legislation are hoping to finally gain legal recognition of that title. 
Under American law, ``aboriginal title'' is the right of Indian tribes 
to their aboriginal lands. Good against all but the United States, 
aboriginal title may be extinguished only by Congress, and then only 
where Congress' intent to extinguish aboriginal title is ``plain and 
unambiguous.''
    During the time of Spanish and Mexican administration, Santa Clara 
Pueblo was recognized as occupying and controlling a much greater area 
than is represented by our current landholdings, including the Garcia 
Canyon surplus lands. In 1763, New Mexico Governor Tomas Velez Gachupin 
further guaranteed Santa Clara Pueblo's exclusive ownership of the 
Santa Clara Canyon and surrounding lands totaling approximately 90,000 
acres by issuing to Santa Clara the ``Canada de Santa Clara'' land 
grant. This well-documented Spanish land grant included the 2,484 acres 
of the Garcia Canyon surplus lands currently sought for transfer to 
Santa Clara Pueblo.
    The United States acquired jurisdiction over this area by the 1848 
Treaty of Guadalupe-Hidalgo, which required the government to respect 
the property rights of the inhabitants of the territory, including the 
Pueblos. For a number of reasons, including ignorance of Spanish land 
laws, failure to consider the actual land records in the possession of 
the archives of Nuevo Mexico and potentially fraudulent land 
transactions, however, the United States actually recognized only a 
small fraction of the lands subject to Pueblo ownership. In 1850 the 
United States' agent for Indian Affairs negotiated a treaty with the 
Pueblos promising that the United States would protect the Pueblos' 
ownership of property, but the Senate never ratified that treaty. In 
1854 Congress created the office of the Surveyor General, who was 
instructed to determine the private property rights in New Mexico held 
pursuant to Spanish and Mexican law. The Surveyor General was 
instructed to rely on the documents in the Spanish and Mexican 
archives.
    In the case of our Pueblo, this was not done. Santa Clara Pueblo 
received confirmation of the Santa Clara Pueblo Grant, totaling 
approximately 17,369 acres of land primarily in the Rio Grande Valley. 
In addition, the United States through its territorial officials acted 
to protect some of what it saw as Pueblo lands outside the Pueblo 
Grant. In 1852 U.S. Indian Office agents removed an American settler 
from the upper portions of the Santa Clara Canyon. In 1882 Santa Clara 
Pueblo petitioned the Surveyor General for confirmation of the ``Canada 
de Santa Clara'' grant, totaling about 90,000 acres, including the 
approximately 2,484 acre Santa Clara portion of the Garcia Canyon 
surplus lands. The Pueblo's petition was supported by Indian Agent Ben 
M. Thomas, New Mexico Surveyors General Clarence Pullen and George W. 
Julian, and A.J. Sparks, Commissioner of the General Land Office. 
However, for reasons that remain obscure, Congress never acted to 
confirm the grant.
    In 1891, Congress created the Court of Private Land Claims to 
provide an alternative to the cumbersome and much abused process of 
congressional confirmation and patent. Santa Clara presented its claim 
for the Canada de Santa Clara Grant to the Court in 1892. Lacking the 
resources to fully prosecute the claim and facing procedural 
disadvantages, however, the Pueblo faced an uphill battle in the Court. 
Moreover, the Court relied on a compendium of Spanish and Mexican laws 
that was compiled by the lawyers working for the government. The 
government succeeded in defeating about 94% of the claims presented to 
the Court.
    The record of the Santa Clara claim shows how aggressively the 
Court dealt with even meritorious claims. While the Court confirmed 
Santa Clara's title to the ``Canada de Santa Clara'' grant on September 
29, 1894, it ignored the specific details of the grant boundaries as 
set forth in the grant document, disregarded controlling principles of 
Spanish land law, and accepted a highly restrictive survey of the 
grant. Thus, of the 90,000 acres presented for confirmation, the Court 
confirmed only 473 acres, in a narrow strip at the bottom of the 
canyon. Many assessments of the settlement of the Santa Clara's Canada 
Grant claim have found it to be unjust and potentially fraudulent, 
including a 1904 report by C.F. Nester, a U.S. Indian Inspector and 
various documents produced by the Congressionally-created Pueblo Lands 
Board.
    Having been deprived of the bulk of its Spanish land grant by the 
Court of Private Land Claims, the Pueblo sought relief from Congress 
and the President of the United States. Those efforts were at least 
partially successful when, on July 29, 1905, President Theodore 
Roosevelt by Executive Order created the Santa Clara Reservation that 
included about 33,000 acres of the land within the original Canada de 
Santa Clara Grant. However, no part of the Garcia Canyon surplus lands 
was included in the Executive Order Reservation.
    Santa Clara Pueblo brought action against the United States 
pursuant to the Indian Claims Commission Act (60 Stat. 1040, 25 U.S.C. 
70, et seq.), Pueblo of Santa Clara v. United States, I.C.C. Dkt. No. 
356. The I.C.C. had been created on August 13, 1946 specifically to 
rule on all Indian claims against the United States arising before the 
passage of the act. The Pueblo's purpose in petitioning the I.C.C. was 
to regain land they claimed and to utilize the I.C.C. proceedings to 
convince the Congress to assist with this restoration. However, the 
I.C.C. Act was later interpreted to provide only for monetary 
compensation and not for confirmation of title.
    The Santa Clara claim was settled in 1988 in a manner that 
preserved Santa Clara Pueblo's aboriginal title to its ancestral lands 
in the Garcia Canyon surplus lands. That year, the Pueblo and the 
United States reached an agreement whereby the Pueblo agreed to accept 
monetary compensation for 5,309 acres of its aboriginal lands, and it 
dismissed its claims for compensation as to the remaining 26,230 acres 
of the claim. That disposition of the claim left the Pueblo's 
aboriginal title to the remaining lands, including the Santa Clara 
portion of the Garcia Canyon surplus lands, unextinguished.
    Santa Clara Pueblo has continued to assert its claims to this land 
and has continued to use this land for a variety of economic and 
cultural purposes. The B.L.M. recognizes this fact, and states in its 
Taos Resource Area Management Plan that ``[l]ands administered by the 
BLM . . . are contiguous with several Indian pueblos . . . [including] 
Santa Clara. . . . Much of the adjacent public land is traditionally 
used by these pueblos for wood gathering and religious purposes'' (p. 
2-14). Pueblo livestock grazed on the lands before the United States 
erroneously assumed jurisdiction over the land pursuant to the Taylor 
Grazing Act in the 1940's. Gathering of cultural materials by our 
Pueblo is ongoing. Finally, the Pueblo continue to care for cultural 
sites located within these lands as we have for centuries.
    The current situation presents a unique opportunity to support more 
efficient management of public resources while restoring to tribal 
control isolated tracts of surplus federal land. The B.L.M. currently 
seeks to dispose of the Garcia Canyon surplus lands and Santa Clara 
Pueblo seeks to have these lands returned. In addition, the B.L.M. and 
Interior Department for years have supported the return of the land to 
Santa Clara Pueblo and San Ildefonso Pueblo, provided the Pueblos agree 
upon a division of the Garcia Canyon surplus lands. In response, the 
two Pueblos signed a formal agreement affirming the boundary between 
their respective parcels on December 20, 2000 [attached hereto as 
Exhibit 12].
    Santa Clara Pueblo believes that federal legislation to restore 
these lands is warranted in this case because the Garcia Canyon surplus 
lands are identified for disposal by the federal government, there are 
no other parties interested in acquiring these lands, the two Pueblos 
maintain aboriginal title to these lands and control the only vehicular 
access and the B.L.M. supports the transfer of the lands to the two 
Pueblos. In addition, the proposed legislation contains provisions that 
protect any valid right-of-way, lease, permit, mining claim, grazing 
permit, water right, or other right or interest of a person or entity 
(other than the United States) on these lands that is in existence 
before the date of enactment of this Act. However, to our knowledge 
there are no present lease or permit holders within these lands. 
Further, the legislation contains provisions to promote stewardship 
conservation as well as our traditional and customary uses of the 
property, which to our Pueblo include but are not limited to: hunting; 
livestock grazing; gathering and harvesting natural materials for 
personal and community use as well as to produce products for trade or 
sale; and cultural practices. Finally, no new commercial developments 
will be allowed on the Garcia Canyon disposal lands after transfer to 
the two Pueblos.
    Above all, the return of these 2,484 acres to Santa Clara Pueblo 
will enable us to better control our resources in the area, protect our 
culture, and provide for our future generations. By owning and managing 
these lands, we will be able to prevent any use or development of these 
lands that might permanently damage these sensitive lands and their 
resources, upon which our community depends. We are deeply committed to 
maintaining these lands in a natural state and conserving them for 
their hydrological, ecological, and cultural values consistent with our 
traditional and customary uses. Santa Clara has a proven track record 
of protecting and managing the lands currently in our 
reservation.Finally, the transfer of these lands will demonstrate an 
effective policy with regards to working with Indian tribes and Pueblos 
to achieve both tribal self-governance and effective, cooperative 
protection of the environment.
    In conclusion, we request that you favorably report this 
legislation and support its passage by the United States Senate this 
year. On behalf of the people of Santa Clara, I thank you, Mr. 
Chairman, and the members of the Subcommittee for the opportunity to 
testify on S. 246.

    Senator Craig. Governor, thank you very much.
    Now, let me turn to Governor Gonzales.

  STATEMENT OF JOHN GONZALES, GOVERNOR, SAN ILDEFONSO PUEBLO, 
                          SANTA FE, NM

    Governor Gonzales. Thank you, Mr. Craig, Mr. Bingaman. 
First of all, I would like to just on a personal note extend my 
welcome from--or my best wishes from my wife Carla Gonzales, 
who used to be known as Carla Hiagle, a member of the Nez Perce 
Nation to you, Mr. Craig.
    Senator Craig. Yes. Give her my best, Governor.
    Governor Gonzales. I will.
    Senator Craig. Yes.
    Governor Gonzales. I will. Thank you. And she lives in San 
Ildefonso Pueblo now, so she is going through cultural shock.
    [Laughter.]
    Governor Gonzales. Honorable Chairman Craig and the members 
of the subcommittee, good afternoon. I am John Gonzalez, the 
governor of San Ildefonso Pueblo. Thank you for holding this 
hearing on Senate S. 246, and inviting San Ildefonso to present 
to the subcommittee why the pueblo believes this bill is in the 
best interest of the United States and San Ildefonso and Santa 
Clara Pueblos. I ask that the first text of the written 
comments be entered into the record.
    I have with me from San Ildefonso Pueblo, our first 
lieutenant governor, Timothy Martinez, if I could please 
recognize him.
    Senator Craig. Certainly. Welcome.
    Governor Gonzales. And Councilman Sean Hughes.
    Senator Craig. Welcome.
    Governor Gonzales. We want to thank Chairman Domenici and 
ranking member Bingaman on the pueblo's behalf for their 
sponsorship and additional efforts to secure passage of this 
legislation. Our pueblo certainly appreciates that support.
    The lands between--excuse me. I do not want to cover what 
Senator--excuse me--Governor Gutierrez has covered, so I will 
skip over some parts of my testimony.
    San Ildefonso Pueblo's tie to this part--to its part of 
the--this tract goes back to before recorded history. Before 
the arrival of the Europeans on this continent, the pueblo had 
exclusive use and responsibility for a much larger area of 
land.
    We cared for the land and the land cared for us. Now, the 
United States recognizes our beneficial title to a much smaller 
area. Senate S. 246 will return a portion of the pueblo's 
heartland to it.
    The procedures used for the creation of the national forest 
and the application of the Taylor Grazing Act to Federal lands 
may have legally changed the pueblo's relationship to these 
lands as a matter of Federal law, but these Federal acts could 
not change the fundamental nature of the pueblo's tie to the 
lands within the pueblo's world view.
    S. 246 contains limits on how the pueblo can use the land 
to be placed into trust for its benefit. The legislation gives 
back to the pueblo its ability to actively manage the land for 
conservation purposes, as well as continued traditional and 
customary uses.
    It does not permit new commercial development on the land. 
These limits are consistent with the pueblo's own view of its 
responsibilities to the land.
    On behalf of my pueblo, I ask the subcommittee and the 
Congress to--for favorable consideration of S. 246, and make 
myself available to any questions you may have about S. 246. 
Thank you very much.
    Senator Craig. Governor, thank you very much.
    [The prepared statement of Governor Gonzales follows:]

 Prepared Statement of John Gonzales, Governor, San Ildefonso Pueblo, 
                               New Mexico

    Honorable Chairman Craig and Members of the of the Subcommittee, I 
am John Gonzales, Governor of the Pueblo of San Ildefonso and I appear 
before you today to testify in favor of Senate Bill 246 (S. 246).

                                PURPOSE

    The purpose of this proposed legislation is to declare that all 
right, title and interest of the United States in and to separate 
tracts of land in New Mexico currently identified for disposal by the 
Bureau of Land Management totaling approximately 2,000 acres and 2,484 
acres shall be held by the United States, subject to valid existing 
rights, in trust for the federally-recognized Indian Pueblos of San 
Ildefonso and Santa Clara, respectively.

                  SUPPORT FOR THE PROPOSED LEGISLATION

    This legislation is supported by the U.S. Department of the 
Interior, though the Assistant Secretary of the Interior for Land and 
Minerals Management, and the New Mexico Director of the United States 
Bureau of Land Management. The New Mexico Counties of Rio Arriba and 
Santa Fe, where the Garcia Canyon lands are located, and the nearby 
County of Los Alamos support this legislation because it is most likely 
to provide better management of the Garcia Canyon lands. In addition, 
the likelihood of better management of these lands has garnered the 
support of the Sierra Club, the Audubon Society and, the Wilderness 
Society and the Quivera Coalition. Copies of these support documents 
have been provided to our Senators, and can be provided to the 
Committee upon request.

                               BACKGROUND

    In 1988 the Bureau of Land Management (hereinafter ``B.L.M.''), 
pursuant to the Federal Lands Policy and Management Act (43 U.S.C. 1707 
et seq., hereinafter ``F.L.P.M.A.'') declared certain lands in Township 
20 North, Ranges 7 and 8 East, N.M.P.M. to be ``disposal property''. 
These 4,484 acres (hereinafter, ``the surplus lands'' or ``Garcia 
Canyon tract'') are located in the eastern foothills of the Jemez 
Mountains in the northern part of New Mexico. The surplus lands 
comprise one tract, enclosing 4,484 acres in the eastern Garcia Canyon 
and Chupaderos Canyon area (hereinafter ``the Garcia Canyon tract''). A 
map depicting the location of the surplus lands and the division 
between the Pueblos of San Ildefonso and Santa Clara is attached.
    The B.L.M. Taos Resource Area Management Plan, dated October 1988 
(``Plan''), states that the surplus lands were identified for disposal 
``. . . through the Bureau's land use planning process . . . [and] must 
meet the criteria established in Sections 203 and 209 of FLPMA'' (Plan, 
p. 2-15). These lands met the specific ``disposal criteria'' applicable 
where the land, ``. . . because of its location or other 
characteristics, is difficult and uneconomic to manage as part of the 
public lands.'' The Taos Resource Area Management Plan identified lands 
for disposal that it considered ``scattered and isolated'' and where 
the B.L.M. concluded that transferring these lands out of its control 
may help ``. . . achieve more efficient management and utilization of 
public resources'' (Plan, p. 2-11, 1-6). The B.L.M.'s land use planning 
process designating the surplus lands ``for disposal'' involved 
extensive consultation with the public, permittees and lessees and 
relevant federal and state agencies.
    The surplus lands qualify for disposal because they are isolated 
tracts of land virtually inaccessible to the general public. The 
surplus lands are surrounded on three sides by the reservations of 
Santa Clara Pueblo and the Pueblo of San Ildefonso with U.S. Forest 
Service land on the remaining side. Due to this, the only road access 
to the surplus lands consists of unimproved roads through the two 
Pueblos' reservations. Altogether, due to these factors there has been 
minimal or no public usage of the surplus lands in recent decades, and 
these factors create complications for proper supervision by the B.L.M.
    Further, the surplus lands do not contain any significant public 
values or natural resources. Steep canyons and occasional flat mesas 
covered with pinon, juniper trees and a sparse gramma grasslands 
coverage make up most of the tract. While limited pumice mining 
occurred during the 1960s, it is unlikely that any significant minerals 
exist within the surplus lands. Currently there are no resource 
permits, leases, patents or claims involving this tract.
    The surplus lands contain a limited amount and quality of forage 
for livestock but have not been actively grazed for over a decade. 
After World War II livestock grazed on these lands under a permit held 
by an absentee owner, C. Earle Miller of Downington, Pennsylvania. 
B.L.M.'s file at the Taos Field Office shows that this area was 
difficult to graze due to repeated droughts, lack of water sources on 
the mesa tops, difficulty with maintaining trails to the mesa tops, and 
limits on use of lower parts of the tract in the absence of good 
precipitation, a rare occurrence in the desert southwest. In an attempt 
to ensure the parcel was grazed, in 1970 Mr. Miller informed the B.L.M. 
that he wanted to lease his permit to Abel Sanchez, the Governor of San 
Ildefonso Pueblo. The B.L.M. discouraged this lease and it was not 
completed.
    Two years later the B.L.M. threatened to cancel Mr. Miller's permit 
after three consecutive years of non-use. The Pueblo of San Ildefonso 
continued to be involved in Mr. Miller's cattle operations, and in fact 
managed those operations under contract during the mid-1970s. After 
this arrangement ended, the allotment was frequently left ungrazed or 
undergrazed and never held more than 31 cows in one year. Finally, in 
December of 1989 the B.L.M. notified Mr. Miller that it was canceling 
his permit because he ``did not meet the mandatory qualifications of 
actively grazing on public land in conjunction with a livestock 
business.'' The Millers continued to have a good relationship with the 
Pueblo of San Ildefonso and in their Will bequeathed their five-acre 
property adjacent to the Garcia Canyon tract to the Pueblo of San 
Ildefonso. The B.L.M. currently does not intend to issue a grazing 
permit for the Garcia Canyon tract.

                   ANCESTRAL PUEBLO TIES TO THE LAND

    The Pueblos of Santa Clara and San Ildefonso have long-standing 
ties to the surplus lands. These lands are important parts of their 
ancestral homelands which they have used and occupied since time 
immemorial.
    These Pueblos are two of the Tewa-speaking federally-recognized 
Indian Pueblos of New Mexico. Both Pueblos have occupied and controlled 
the areas where they are presently located since many centuries before 
the arrival of the first Europeans in the area in 1540. From time 
immemorial, the two Pueblos have used and possessed their ancestral 
homelands in the Jemez Mountains, Pajanto Plateau, and Rio Grande 
Valley. The boundaries of these homelands are defined by geographical 
landmarks, cultural sites, and other distinct places whose traditional 
Tewa names and locations have been known and passed down in each Pueblo 
through the generations. Federal Bureau of Ethnology Studies done in 
the early 1900s documented these traditional Tewa names and which 
Pueblo was associated with a particular landmark. HARRINGTON, The 
Ethnogeography of the Tewa Indians, 29th Report of the Bureau of 
American Ethnology to the Secretary of the Smithsonian Institution, 
1907-1908. Based upon these boundaries, about 2,000 acres of the Garcia 
Canyon tract is within the aboriginal domain of the Pueblo of San 
Ildefonso and the remaining 2,484 acres, more or less, of the Garcia 
Canyon tract are in Santa Clara Pueblo's ancestral homeland.
    Spanish and Mexican governments recognized these Pueblos as 
occupying and controlling a much greater area than their current land 
holdings. The rights of Indians to their traditional lands was 
emphasized in the Recopilacion de leyes de los Re vnos de las Indias of 
1680, a condensation of some 100,000 royal pronouncements on Indian 
affairs after 1492. Through these laws, the Pueblos and tribes retained 
possession of the lands belonging to them. Pueblos were also entitled 
to additional lands if needed and Pueblo holdings were protected from 
encroachment by Spanish settlers and livestock. San Ildefonso Pueblo's 
western lands were the setting of one of the most thoroughly documented 
lawsuits brought by the Spanish crown's representative during the 
colonial period. The ``Protector of the Indies'' prevailed over several 
persons seeking to take over these lands. The records of this lawsuit 
have survived as part of the Spanish Archives of New Mexico (SANM).
    Accordingly, both Pueblos retained their aboriginal ownership and 
use of the surplus lands throughout the Spanish and Mexican periods as 
a matter of Spanish and Mexican law. In addition, in 1763 New Mexico 
Governor Tomas Velez Cachupin further guaranteed Santa Clara Pueblo's 
exclusive ownership of the Santa Clara Canyon and surrounding lands 
totaling approximately 90,000 acres by issuing the Pueblo the ``Canada 
de Santa Clara'' land grant. This well-documented Spanish land grant 
included the 2,484 acres of the Garcia Canyon tract.
    The United States acquired jurisdiction over the area pursuant in 
1848, but to date has recognized less than one-half of the Pueblos' 
original land bases. The failure to recognize the true extent of the 
Pueblos' lands was the result of many factors, including ignorance of 
Spanish land laws, failure to consider the actual land records in the 
possession of the archives of New Mexico and potentially fraudulent 
land transactions.
    Pursuant to the Treaty of Guadalupe-Hidalgo (as put into effect by 
the Surveyor General Act of July, 22, 1854, Ch. 103, 10 Stat. 308), the 
United States was obligated to protect the Pueblos' rights to these 
lands and the cultural resources on these lands. See State of New 
Mexico v. Aamodt, 618 F.Supp. 993 (D.N.M. 1985). Specifically, property 
rights were not affected by the change in sovereignty and jurisdiction 
(Tameling v. U.S. Freehold & Emigration Co., 93 U.S. 644 (1876)). In 
1850 the United States' Indian Agent, James S. Calhoun, entered into an 
agreement with the each Pueblos promising that the United States would 
protect the Pueblos' ownership of property. This agreement was never 
ratified by the Congress of the United States. In 1854 Congress gave 
the Surveyor General instructions on determining the property in New 
Mexico held pursuant to Spanish and Mexican law. The Surveyor General 
was instructed to rely on the documents in the Spanish and Mexican 
archives.
    In the case of the Pueblo of San Ildefonso, this was not done. The 
lands now referred to as the San Ildefonso Pueblo Grant were recognized 
and the Pueblo was given a patent to the grant lands, but not other 
lands within the Pueblo's aboriginal boundary, including lands west of 
the San Ildefonso Pueblo Grant, even though the Pueblo's ownership was 
clearly recorded in the Archives. Small areas were returned to the 
Pueblo in the twentieth century. In 1905 the Federal Jemez Forest 
Reserve was created, but the Garcia Canyon lands were not included 
within that Reserve. Congress explicitly recognized and reserved for 
the Pueblo's use a small area in 1929, located directly west of the 
present San Ildefonso Grant, but it did not include the Garcia Canyon 
lands. In 1949 Congress recognized San Ildefonso's Sacred Area 
reservation, southwest of the grant, approximately one-fifth of the 
lands the United States acquired for the Pueblo in the 1930s. At one 
time the United States contemplated granting the Pueblo of San 
Ildefonso grazing leases for the Garcia Canyon Lands in exchange for 
the failure to recognize all of the Pueblo's sacred area. The Bureau of 
Indian Affairs' Pueblo Agency rejected this suggestion because allowing 
the Pueblo to use its own land was not giving them anything in exchange 
for the other lands.
    The Pueblos of San Ildefonso and Santa Clara have continued to 
assert their claims to this land and have continued to use this land 
for a variety of economic and cultural purposes. The B.L.M. recognizes 
this fact, and states in its Taos Resource Area Management Plan that 
``[l]ands administered by the BLM . . . are contiguous with several 
Indian Pueblos . . . [including] Santa Clara [and] San Ildefonso. . . . 
Much of the adjacent public land is traditionally used by these Pueblos 
for wood gathering and religious purposes'' (p. 2-14). Pueblo livestock 
grazed on the lands before the United States erroneously assumed 
jurisdiction over the land pursuant to the Taylor Grazing Act in the 
1940's. Gathering of cultural materials by the two Pueblos is on-going. 
Finally, the Pueblos continue to care for cultural sites located within 
these lands as they have for centuries.

                           PROPOSED TRANSFER

    The current situation presents a unique opportunity to support more 
efficient management of public resources while restoring to tribal 
control isolated tracts of surplus federal land. The B.L.M. currently 
seeks to dispose of the surplus lands and the Pueblos of Santa Clara 
and San Ildefonso seek to have these lands returned. In addition, the 
B.L.M. and Interior Department for years have supported the return of 
the land to the two Pueblos, provided the Pueblos agreed upon a 
division of the Garcia Canyon parcel. In response, the two Pueblos 
signed a formal agreement affirming the boundary on December 20, 
2000.It reads:

 AGREEMENT TO AFFIRM BOUNDARY BETWEEN PUEBLO OF SANTA CLARA AND PUEBLO 
      OF SAN ILDEFONSO ABORIGINAL LANDS WITHIN GARCIA CANYON TRACT

    This Agreement is entered into this 20th day of December, 2000, by 
and between the Pueblo of San Ildefonso, a federally recognized Indian 
tribe, and the Pueblo of Santa Clara, a federally recognized Indian 
tribe (hereinafter collectively referred to as the ``two Pueblos'').
    RECITALS
    WHEREAS, the two Pueblo each claim and possess unextinguished 
aboriginal title to a portion of the lands within a tract of land 
presently administered by the United States Bureau of Land Management 
(hereinafter referred to as the ``Bureau of Land Management''), 
consisting of approximately 4,484 acres, situated within Sections 22, 
23, 24, 25, 26, 27, 34 and 35, T.20 N., R. 7 E., and Sections 19 and 
30, T. 20 N., R. 8 E., NMPM, which tract is enclosed by the heavy blue 
line on the map attached hereto as Exhibit A (and which tract is 
hereinafter referred to as the ``Garcia Canyon Tract''); and
    WHEREAS, the Bureau of Land Management has designated the Garcia 
Canyon Tract as surplus land, available for disposal, and officials of 
the Bureau of Land management now support restoration of the Garcia 
Canyon Tract to the two Pueblos, subject to a clear definition by the 
two Pueblos of the location of the boundary between their respective 
aboriginal areas; and
    WHEREAS, the two Pueblos agree as to the location of the boundary 
line through the Garcia Canyon Tract between their respective 
aboriginal title areas, and wish to enter into this Agreement so as to 
clearly affirm this agreement and to establish a means for locating the 
boundary on the ground so that these lands may be restored to the two 
Pueblos.
    NOW THEREFORE, the two Pueblos hereby agree as follows:
    1. The red line shown on the map attached hereto as Exhibit A, 
through the Garcia Canyon Tract, accurately depicts the boundary 
between the two Pueblos' respective aboriginal title areas within the 
Garcia Canyon Tract, at the scale of that map.
    2. The lands to the north of the red line within the Garcia Canyon 
Tract, which are designated on Exhibit A as ``Tract A'', consisting of 
approximately fifty-five percent (55%) of the total acreage of the 
Garcia Canyon Tract, are agreed to be lands subject to unextinguished 
aboriginal title of the Pueblo of Santa Clara, and the Pueblo of San 
Ildefonso hereby and forever disclaims any right, title or interest in 
or to the lands within Tract A.
    3. The lands to the south of the red line within the Garcia Canyon 
Tract, which are designated on Exhibit A as ``Tract B'' consisting of 
approximately forty-five percent (45%) of the total acreage of the 
Garcia Canyon Tract, are agreed to be land subject to the 
unextinguished aboriginal title of the Pueblo of San Ildefonso, and the 
Pueblo of Santa Clara hereby and forever disclaims any right, title or 
interest in or to the lands contained within Tract B.
    4. The following procedures will be used for establishment of the 
boundary line between Tract A and Tract B on the ground:
    A. Each Pueblo shall designate a land specialist and such other 
staff or officials as the Pueblo deems appropriate to represent that 
Pueblo in locating the line on the ground (which persons are 
collectively referred to hereinafter as the ``Pueblo 
Representatives'').
    B. The Pueblo Representatives shall meet and travel to the Garcia 
Canyon Tract, utilizing such equipment as they deem appropriate, 
properly calibrated so as to yield equivalent results for the 
representatives of each Pueblo, so as to establish on the ground the 
angle points of the red line shown on Exhibit A, in such a manner that 
a line joining the points established by them divides the Garcia Canyon 
Tract in accordance with the provisions of this Agreement.
    5. Once the Pueblo Representatives have agreed that the angle 
points of the boundary line are located on the ground such that a line 
joining those points divides the Garcia Canyon Tract between the two 
Pueblos as provided in this Agreement, they shall take care to mark 
each such point on the ground precisely and prominently, physically and 
with agreed upon GPS coordinates, and shall prepare a written 
description of the line utilizing such coordinates, the distances from 
one point to the next, and a description of the physical monumentation, 
which description shall be signed by the governor of each Pueblo and 
attached to the original of this Agreement as Exhibit B.
    6. The Pueblo Representatives shall then transmit the description 
of the line as arrived at, by the procedures set forth herein, to the 
Office of Cadastral Survey of the Bureau of Land Management, U.S. 
Department of the Interior (hereinafter referred to as ``Cadastral 
Survey'') for performance of the official survey. The two Pueblos agree 
to authorize the Cadastral Survey to make any necessary minimal 
corrections to the line and the monuments--wit the assistance and 
concurrence of the Pueblo Representatives--so that the final surveyed 
boundary line accurately reflects the proportionate acreage described 
in this agreement. The two Pueblos agree that the establishment of a 
line on the ground, by the Cadastral Survey, that joins the angle 
points established by the Pueblo Representatives as set forth herein, 
shall be and constitute the agreed upon boundary line between the two 
Pueblos' aboriginal title areas through the Garcia Canyon Tract for all 
purposes.
    7. The two Pueblos agree to work cooperatively so as to obtain 
expeditious transfer of the lands within the Garcia Canyon Tract into 
trust for the two Pueblos respectively, such that Tract A would beheld 
in trust by the United States for the exclusive use and benefit of the 
Pueblo of Santa Clara, and Tract B would be held in trust by the United 
States for the exclusive use and benefit of the Pueblo of San 
Ildefonso, either by administrative or by congressional action.
    8. Once the Garcia Canyon Tract lands have been placed in trust for 
the two Pueblos, respectively, in accordance with the provisions of 
this Agreement, the two Pueblos agree that they will undertake to 
construct a suitable fence along the boundary line as established 
herein and will equally share the cost of the materials and labor for 
such fence.
    9. Nothing herein shall be deemed to have any effect whatsoever on 
any aboriginal title claims of either of the two Pueblos with respect 
to lands outside of the Garcia Canyon Tract.
    10. In the event of any dispute arising between the two Pueblos 
with respect to the matters set forth herein, the two Pueblos agree 
that their respective governors and lieutenant governors shall meet in 
an effort to resolve the dispute. In the event that such efforts are 
not successful, after a reasonable period of time, the two Pueblos 
agree that they will request assistance of the Federal Mediation 
Service to resolve the matters in dispute.

    PUEBLO OF SANTA CLARA
    s/Denny Gutierrez, Governor
    12/20/00
PUEBLO OF SAN ILDEFONSO
s/Perry Martinez, Governor
12/20/00

    Since the agreement was signed, representatives from each Pueblo 
worked together to establish the boundary on the ground, thereby 
allowing for survey of each tract.

                               CONCLUSION

    S. 246 is not a give-away of public lands. It is proposed 
legislation that recognizes that transfer of one tract each to the 
United States Secretary of the Interior for the benefit of San 
Ildefonso and Santa Clara Pueblos, with the Pueblos given 
responsibility and stewardship of these lands. This is in the public 
interest because it proposes the best use of these lands.
    San Ildefonso Pueblo believes that federal legislation is justified 
in this case because the surplus lands are identified for disposal by 
the federal government, there are no other parties interested in 
acquiring these lands, the two Pueblos maintain aboriginal title to 
these lands and control the only vehicular access and the B.L.M. 
supports the transfer of the lands to the two Pueblos. The proposed 
legislation contains provisions that ensure that no private property 
rights are adversely affected and there are no present permit holders 
within these lands. Furthermore, the legislation contains limits on how 
these tracts can be used by the Pueblos. Commercial development is 
prohibited once the land is transferred to the Secretary for the 
benefit of the Pueblos. The lands will be managed to preserve cultural 
and traditional uses.

    Senator Craig. What I am going to do now for sake of time--
Jim, you have testimony specific to this legislation, do you 
not?
    Mr. Hughes. That is correct.
    Senator Craig. But the Forest Service does not. Okay.
    Why do you not give us your testimony specific to this? 
Then we will ask Senator Bingaman if he has any questions. And 
then I would suggest to both of you governors you are free to 
leave if you need to. At that point, I have got a couple of 
questions or you might wait. Senator Domenici does plan to be 
here, but then again if you--if you are running up against time 
that you would miss an airplane, we will understand that and 
you are free to leave.
    So, Jim, why do you not proceed? Jim Hughes, Deputy 
Director of the Bureau of Land Management, Department of the 
Interior. And just, if you would, be specific to this 
legislation only. Thank you.

   STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Hughes. Mr. Chairman, Senator Bingaman, we thank you 
for the opportunity to comment on this bill today.
    Senator Craig. Is your mike on, Jim?
    Mr. Hughes. Hello?
    Senator Craig. There you go. Thank you.
    Mr. Hughes. The Department generally supports S. 246, but 
believes the subcommittee should consider some minor 
modifications to the bill.
    The BLM has identified approximately 4,480 acres described 
in the legislation as available for disposal and believes the 
adjacent pueblos of Santa Clara and San Ildefonso would be 
appropriate holders of this land. S. 246 divides the parcel by 
conveying approximately 2,480 acres of BLM land to the Pueblo 
of Santa Clara and about 2,000 acres to the Pueblo of San 
Ildefonso.
    The Department is concerned, however, that while S. 246 
would be convey the land that is the subject of a land claim, 
the bill does not settle any future claims for these lands 
managed by the BLM.
    S. 246 should be modified to include a provision for the 
Pueblo San Ildefonso to relinquish any claim under docket 
number 354 in the U.S. Court of Federal Claims, and a provision 
to waive any future claims by the Pueblo of Santa Clara 
regarding these lands. And I know some people have read that a 
different way, but we are just talking about the 4,000--as I 
understand it, the 4,480 acres in the bill. I know there are 
some other lands that may be involved in those claims. This 
would provide finality to long-standing land claims on this 
parcel.
    Mr. Chairman, the Department looks forward to working with 
the committee on these bills. Thank you for the opportunity to 
testify before you today. I would be pleased to answer any 
questions that you have or other members have.
    Senator Craig. Jim, thank you very much.
    [The prepared statement of Mr. Hughes follows:]

     Prepared Statement of Jim Hughes, Deputy Director, Bureau of 
                            Land Management

    Mr. Chairman, and members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss S. 203, a bill to open 
certain withdrawn lands in Big Horn County, Wyoming, to locatable 
mineral development for bentonite mining and S. 246, a bill to provide 
that certain Bureau of Land Management land be held in trust for the 
Pueblo of Santa Clara and the Pueblo of San Ildefonso in the State of 
New Mexico. The Department of the Interior generally supports the 
intent of S. 203, but has some concerns about how the bill would be 
implemented. The Department generally supports S. 246, but would like 
to work with the Subcommittee to make some modifications.

                                 S. 203

    Executive Order 7491 of November 14, 1936, withdrew over 3,500 
acres of public land in Big Horn County, Wyoming, from settlement, 
location, sale or entry, and reserved the lands for use by the War 
Department as a target range. These lands remain withdrawn and reserved 
under the jurisdiction of the Secretary of the Army for target range 
purposes, and are currently used by the Wyoming Army National Guard. 
The most recent review and rejustification of this withdrawal occurred 
in May 1984 and concluded that mining operations could not be allowed 
in the area because of the concerns with small arms training. S. 203 
would open approximately 40 acres of this withdrawn land for bentonite 
mining.
    The BLM has no objection to the mining of bentonite on this parcel, 
however, the BLM is concerned about some ambiguity in S. 203, in its 
current form. As written, it is not clear whether the lands will be 
opened to bentonite location under the 1872 Mining Law, which would 
require BLM to record and regulate the location of the claims. 
Secondly, it is unclear whether the actual mining of the bentonite will 
be managed by the Secretary of the Army or the BLM as the bill does not 
appear to return the lands to the public domain by revoking the 
withdrawal. We would also prefer to draw a more narrow exception for 
this parcel than the broad sufficiency language the bill currently 
provides.
    Bentonite may either be a ``locatable mineral'' under the 1872 
Mining Law or valued as a ``common variety mineral'' and salable under 
the Materials Act of 1947. The Department of the Interior recommends 
that language in S. 203 be modified to direct the BLM to use the 
authority of the Materials Act of 1947 to allow for a competitive sale 
of the bentonite on this parcel. The BLM currently has the authority to 
sell common variety bentonite off the parcel with the consent of the 
Department of Army, and subject to their operations. It is our 
understanding, however, that the bentonite on this 40 acre parcel may 
be of a locatable nature. Location and discovery of a valuable mineral 
under the 1872 Mining Law allows the claimant the right to apply for 
patent of the lands. While there remains in force a legislative 
moratorium on the issue of patents for surface lands, a locatable claim 
could create a future property interest in minerals that could conflict 
with the Department of the Army's ability to use the land. Therefore, 
we could not support this bill if it allows the minerals on the site to 
be mined in a way that would complicate any future military use of the 
land.
    Should the withdrawal be modified or revoked, and the lands placed 
under BLM management by this bill, it is important that an examination 
of the use of the proposed withdrawn lands be completed before a 
decision can be made to open them to bentonite mining. Without 
additional statutory direction, if the proposed use is acceptable , an 
amendment to the existing resource management plan would need to be 
completed and the 40 acres of withdrawn lands placed back into the 
public domain. Subject to any existing 1872 Mining Law claims, the BLM 
might need to complete a process of opening the land in an equitable 
manner to all claimants.

                                 S. 246

    The Department of the Interior generally supports S. 246, but 
believes the Committee should consider modifications to the bill. The 
BLM has identified the approximately 4,480 acres described in the 
legislation as available for disposal. The BLM agrees that the adjacent 
Pueblos of Santa Clara and San Ildefonso would be appropriate holders 
of the land.
    The two Pueblos have a long-standing interest in acquiring this 
parcel. The parcel is bordered on the north by the Santa Clara Pueblo, 
on the south by the San Ildefonso Pueblo, and on the west by National 
Forest lands claimed as aboriginal holdings by the two tribes. In 1988, 
the BLM's Taos Resource Management Plan identified the parcel as 
difficult and uneconomical to manage and determined it suitable for 
disposal. Currently there are no known resource permits, leases, 
patents or claims affecting these lands.
    S. 246 would divide the parcel by conveying approximately 2,480 
acres of BLM land to the Pueblo of Santa Clara and about 2,000 acres to 
the Pueblo of San Ildefonso. Again, the BLM believes the Pueblos would 
be appropriate owners of the land, and would support placing them in 
trust to be used for traditional and customary uses, or to be used for 
stewardship conservation for the benefit of the Pueblos. The Department 
is concerned however, while this legislation would convey land that is 
currently or has recently been the subject of a land claim, the bill 
does not settle any future claims for lands managed by the BLM. The 
bill should be modified to include a provision for the Pueblo of San 
Ildefonso to relinquish any claim under Docket No. 354 in the United 
States Court of Federal Claims and a separate provision to waive any 
future claims by the Pueblo of Santa Clara with regard to these lands. 
This would provide finality to long standing land claims.
    Mr. Chairman, the Department looks forward to working with the 
Committee on these bills. Thank you for the opportunity to testify 
before you today. I would be pleased to answer any questions that you 
or the other members may have.

    Senator Craig. Now, let me turn to Senator Bingaman for any 
questions he might have.
    Senator Bingaman. Yes. Thank you very much, Mr. Chairman. 
Let me ask Mr. Hughes, I am trying to understand this 
suggestion, which is new in--as I do not recall this being 
discussed in the last Congress when we did this bill.
    Mr. Hughes. Correct, right.
    Senator Bingaman. But the suggestion is that we should 
require the Pueblo of San Ildefonso to relinquish any claim to 
this 4,400 acres, is it?
    Mr. Hughes. That is my understanding.
    Senator Bingaman. Under docket number 354, in the Court of 
Claims.
    Mr. Hughes. Yes.
    Senator Bingaman. Now, is this land that is part of what is 
being transferred?
    Mr. Hughes. Yes.
    Senator Bingaman. It is for----
    Mr. Hughes. Yes.
    Senator Bingaman. So why would--I mean if we are 
transferring this to the Pueblo, sir.
    Mr. Hughes. They are not receiving all 4,480 acres, sir.
    Senator Bingaman. Oh, so there is some land that is not the 
subject of this----
    Mr. Hughes. That is my understanding. That is what the 
Justice Department has indicated.
    Senator Bingaman [continuing]. Legislation that they are 
being asked to essentially disclaim any right to.
    Mr. Hughes. Some of the land goes to the other Pueblo that 
I think may be involved in this--their claim.
    Senator Bingaman. Oh, so it is that San Ildefonso is being 
asked to give up a claim for land that is being transferred to 
Santa Clara, is that what is happening?
    Mr. Hughes. That is--the Justice position, we were made 
aware of this this morning. And Justice says they want to work 
with us and the committee to make sure, you know, that this is 
all resolved.
    Senator Bingaman. Yes. I am not very well prepared to ask 
you questions about this because, as I say, I just heard about 
it. Let me ask both governors to give us their views as to 
this, if you are clearer as to what it is the BLM is suggesting 
here, and if so, if you have a view on it.
    Governor Gonzales. Mr. Bingaman and Mr. Craig, the 
suggested modification is strongly opposed by San Ildefonso 
Pueblo. The legislation--the bill as proposed adequately 
addresses all the issues that are involved in this particular 
transfer to include any reference to anything else other than 
this particular parcel interferes with other matters that--and 
other negotiations that we have been involved in--we at San 
Ildefonso Pueblo has been involved in, so--and to avoid 
confusing the issue here, I would rather that we just perhaps 
maybe not refer to docket 354 or any other part of the--of San 
Ildefonso land claims, because all it does is confuse the 
issue.
    The only thing that we are here to talk about is this 
particular tract of 4,484 acres of BLM legislation that 
everybody is supportive of. There is no record or no indication 
of anybody opposing this from any entity whatsoever. So to 
include any modification would--as I indicated would confuse 
the issue here.
    Senator Bingaman. Governor Gutierrez, did you have a point 
of view here?
    Governor Gutierrez. I am on the same side as Governor 
Gonzales. He clearly states on the bill that this acreage that 
is identified in this bill is what we are looking at, nothing 
more.
    We are not relating to any other properties that might be 
out there in our original lands, so this is the only parcel of 
land that we are speaking to at this time, the 4,480-some acres 
that is mentioned in this bill.
    Senator Bingaman. Okay. Let me just clarify here once again 
with Mr. Hughes. My understanding is that the Assistant 
Secretary Rebecca Watson and State Director, Linda Rundell, 
have both written letters to the pueblos expressing support for 
the transfer of land that we are talking about in this bill.
    As far as I know, this is the first time this has been 
raised.
    Mr. Hughes. I believe that is correct, Senator.
    Senator Bingaman. Okay. So this is a new position that we 
are hearing about?
    Mr. Hughes. Yes. And I think it can be worked out. I think 
what the issue the Justice Department is trying to raise is 
they want to make sure this land is clear of all claims, you 
know, when it is transferred to the pueblos, and that it is 
off--it is not involved in any future action.
    Now, as I say, Justice informed--well, the Justice 
Department in discussions asked us, you know, they handle the 
Indian claims issues and so I am sure we can work this out to 
the satisfaction of everybody and with the understanding of 
everybody.
    Senator Bingaman. Okay. Did you have another comment, 
Governor Gonzales?
    Governor Gonzales. Mr. Craig and Mr. Bingaman, the 
legislation as it currently reads does address the issue, what 
Mr. Hughes is raising in regard to the claims to this 
particular property. And it does adequately address that, so 
that is why we are suggesting that there be no modification to 
this bill whatsoever.
    Senator Bingaman. And is that your position, as well, as I 
understand it, Governor Gutierrez?
    Governor Gutierrez. Yes. That is correct. On the 
legislative bill, it clearly states how this agreement came 
about between the two pueblos in coming forth in drafting up 
this legislation on that piece of property.
    Senator Bingaman. Okay. Well, I think we will have to get 
to the bottom of this, Mr. Chairman, and try to figure out the 
basis for this in order to understand where it comes out. Thank 
you very much.
    Senator Craig. Well, thank you, Senator Bingaman. I concur 
with you. We will work with all parties here to see if we 
cannot resolve this to everybody's satisfaction to make sure 
that once this land is transferred, it is done so in 
appropriate fashion for both of the pueblos.
    Again, governors, thank you very much. You can remain at 
the table, if you wish. Senator Domenici, I still believe, 
plans to be here and may have questions of you.
    Governor Gonzales. Could you just extend our regrets that 
we could not----
    Senator Craig. Well, of course, if you have got to leave, 
we clearly understand.
    Governor Gonzales. Please--thank you.
    Senator Craig. Catching a plane in a snowstorm is--has high 
priority especially snow in Washington, D.C., yes.
    Governor Gutierrez. We want to get out before the storm 
hits.
    Senator Craig. Good plan.
    Governor Gutierrez. And once again I want to thank you.
    Senator Craig. Thank you both very much. Jim, let us go 
ahead and proceed with your full testimony now, if you would, 
on all of the bills and then we will move to you, Jim, and work 
our way--Jim and Jim, and work our way down the table to Dr. 
Covington. Please proceed, Jim.
    Mr. Hughes. We are also here to discuss S. 203, a bill to 
open certain withdrawn lands in the Horn County, Wyoming, to 
locatable mineral development for bentonite mining.
    The BLM has no objection to the mining of bentonite on this 
parcel, however BLM does have some concerns with S. 203 in its 
current form. As written, we need some clarification whether 
the lands will be opened to bentonite location under the 1872 
mining law, which would require BLM to record and regulate the 
locations of claims.
    Secondly, it is unclear whether the actual mining of 
bentonite will be managed by the Secretary of Army or the BLM, 
as the bill does not appear to return the lands to the public 
domain by revoking the withdrawal.
    On both of these issues I have talked to staff. I think it 
can be worked out with some direction to us, a little clearer 
direction.
    We could not support the bill, however, if it allows 
minerals on the site to be mined in a way that would complicate 
future military use of the land. The Department therefore 
recommends that S. 203 be modified to direct the BLM to use the 
authority of the Materials Act of 1947 to allow for the 
competitive sale of the bentonite on this parcel.
    Again, on this bill we want to work with the committee to 
find a way to get it done. We also, you know, listen closely to 
what the Defense Department has to say regarding future use of 
this land.
    Senator Craig. Super. Jim, thank you very much. We have 
just been joined by Senator Kyl.
    Jon, why do we not allow Jim Reaves to go ahead and then 
just before Dr. Covington starts his testimony, if you have any 
opening comments specific to the institutes, we will approach 
it that way. Fine.
    Then let me turn to Jim Reaves, Director of Vegetation 
Management and Protection Research, U.S. Forest Service, U.S. 
Department of Agriculture. Jim, welcome.

 STATEMENT OF JIM REAVES, DIRECTOR, VEGETATION MANAGEMENT AND 
 PROTECTION RESEARCH, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Reaves. Thank you. Mr. Chairman and members of the 
subcommittee, thank you for this opportunity to appear before 
you today. I am Jim Reaves, Director of Vegetation Management 
and Protection Research. With me today is David Cleaves, the 
National Program Leader for Fire Systems Research.
    I would like to present the administration's views on S. 
32, the Southwest Forest Health and Wildfire Prevention Act of 
2003, and S. 278, the Mount Naomi Wilderness Boundary Act.
    I am also glad to see Dr. Covington here today. He is a 
renowned expert on ecological restoration. I am glad to be here 
with him.
    S. 32 would establish three institutes in the interior West 
that would promote the use of adaptive ecosystem management to 
reduce the risk of wildfires and improve the health of forests 
and woodland ecosystems. We support the intent of S. 32 to 
institutionalize research on adaptive management processes and 
ensure that sound science research products reach and are 
utilized by land managers in the field.
    We have some concerns regarding how the bill is currently 
drafted and would like to work with the sponsors on 
modifications to the bill. We commend Senator Kyl and the other 
sponsors of the bill for recognizing the importance of research 
needs in this particular area.
    During 2002 fire season, nearly 73,000 fires burned 7.2 
million acres and damaged or destroyed 3,000 structures. While 
most of this fire damage was in the West, the potential for 
significant property losses and resource impacts from wildland 
fire degradation of forest health occurs in many other parts of 
the country. The issue and problems of fire and fire fuel 
managements are truly national in scope.
    Forests where fire has been excluded are also at increased 
risk from insect, disease infestation and invasives, and can 
experience significant shifts in composition away from the most 
desirable tree species for wood products or wildlife.
    Congress recognized the need for scientific information and 
tools to support fuel and fire management programs by 
establishing the Joint Fire Sciences Program in 1998 and 
provided funds for the national fire plan in 2001.
    Research conducted under both the Joint Fire Sciences 
Program and the National Fire Plan addresses national and 
regional priorities and receives national level oversight to 
ensure coordination, applicability of products and 
accountability.
    Since its inception, the Joint Fire Sciences Program has 
partnered with 45 universities and funded 178 research projects 
in 43 States, Puerto Rico, and the District of Columbia. 
Similarly, the National Fire Plan funds supports research in 
all 50 States, including 329 cooperative studies with 56 
universities, non-government organizations, and private sector 
partners across the country. More than one-third of the 
National Fire Plan in the first 2 years of the program has been 
invested with universities and partners.
    We agree that many problems need to be addressed on a 
regional basis, as outlined in S. 32. We also believe that the 
scarcity of funding for fire research relative to the problem 
demands a national perspective and national oversight. In 
particular, the measure appears to create an expectation that 
affected agencies will be required to provide allocations to 
the centers without regard to overall budgetary constraints and 
lead to a further diluting of scare fire research funding.
    We think that S. 32 should not only address problems of 
fire in the interior West, but also address this issue 
nationwide. There are several changes we would like to 
recommend and we would like to share with--I will share only a 
few with you today.
    The Senate should participate in meeting the national needs 
on complex problems and permit the Departments latitude in the 
identification of optimal locations for establishment of the 
centers created under this bill; ensure accountability through 
ongoing monitoring and periodic evaluation of funded 
activities; build on existing fire research and technology 
transfer capacity to avoid unnecessary duplication of efforts. 
We would like to work with the subcommittee as it further 
considers S. 32.
    [The prepared statement of Mr. Reaves follows:]

  Prepared Statement of Jim Reaves, Director, Vegetation Management & 
     Protection Research, Forest Service, Department of Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Jim Reaves, Director, 
Vegetation Management & Protection Research. With me today is David 
Cleaves, National Program Leader for Fire Systems Research. I would 
like to present the Administration's views on S. 32 the Southwest 
Forest Health and Wildfire Prevention Act of 2003 and S. 278 the Mount 
Naomi Wilderness Boundary Adjustment Act.
 s. 32 the southwest forest health and wildfire prevention act of 2003
    S. 32 would establish three institutes in the interior West that 
would promote the use of adaptive ecosystem management to reduce the 
risk of wildfires and improve the health of forest and woodland 
ecosystems. We support the intent of S. 32 to institutionalize research 
on adaptive management processes and ensure that sound scientific 
research products reach, and are utilized by, land managers in the 
field. We have some concerns regarding how the bill is currently 
drafted and would like to work with the sponsors on modifications to 
the bill. We commend Senator Kyl and the other sponsors of this bill 
for recognizing the importance of research needs in this area.
    A trend that has become increasingly apparent during the last few 
years is that wildland fires, especially in the West, are becoming 
larger and burning hotter. These fires are increasingly more difficult 
to control and cause much more environmental damage. During the 2002 
fire season nearly 73,000 fires burned 7.2 million acres and damaged or 
destroyed 3,000 structures. While most of this fire damage was in the 
West, the potential for significant property losses and resource 
impacts from wildland fire and degradation of forest health occurs in 
many other areas of the country. The issues and problems of fire and 
fuel management are truly national in scope.
    In addition to the direct damage caused by wildfires, harmful non-
indigenous plant species such as cheatgrass invade burned over areas, 
predispose them to even greater fire risk, and threaten healthy 
ecosystems and biological diversity. Forests where fire has been 
excluded are also at increased risk from insect and disease 
infestations; and can experience significant shifts in composition away 
from the most desirable tree species for wood products or wildlife.
    We agree with S. 32 that meeting these challenges effectively and 
efficiently requires a solid foundation in scientific knowledge and the 
ability to rapidly convert new scientific insights into technology and 
tools. We also agree that more research attention should be given to 
fire and forest health, not only in the interior West, but also 
throughout the US.

                         CURRENT FIRE RESEARCH

    Congress recognized the need for scientific information and tools 
to support fuel and fire management programs and established the Joint 
Fire Science Program (JFSP) in 1998. The JFSP is a partnership of six 
federal wildland management and research organizations represented by a 
10-member Governing Board that oversees and manages the program. Since 
its inception the JFSP has partnered with 45 universities and funded 
178 research projects in 43 states, Puerto Rico, and the District of 
Columbia.
    Beginning in 2001, additional research funds were made available 
through the National Fire Plan. National Fire Plan research, led by 78 
research teams in the Forest Service regional research stations 
addresses firefighting, fuels management, restoration and 
rehabilitation, and community preparedness to directly support the 
goals of the Ten-Year Comprehensive Fire Strategy. The NFP-funded 
research teams support research in all 50 states, including 329 
cooperative studies with 56 universities, non-government organizations, 
and private sector partners across the country. In addition to 
university partnerships, both the JFSP and the NFP are working with 
State and local agencies, not-for-profit groups such as Tall Timbers 
Research Station and The Nature Conservancy, as well as several for-
profit companies. More than one third of the NFP funding in the first 
two years of the program has been invested with universities and other 
partners.
    Research conducted under both the JFSP and the NFP addresses 
national and regional priorities and receives national level oversight 
to ensure coordination and applicability of products. Funds are 
allocated competitively with the involvement of fire managers and other 
users in the determination of needs and the selection of projects. 
Accountability is assured through annual progress and accomplishment 
reports. The strength of the two programs is their ability to design 
their research with the help of managers in the agencies and to deliver 
research results and tools through established training programs and 
other mechanisms.
    S. 32 focuses on the problem of fire research in a portion of the 
interior West. However, wildland fire risks and forest health concerns 
are national in scale and growing in size and complexity. We agree that 
many problems need to be addressed on a regional basis. We also believe 
that the scarcity of funding for fire research relative to the problem 
demands a national perspective and national oversight. In particular, 
the measure appears to create an expectation that affected agencies 
will be required to provide allocations to the centers without regard 
to overall budgetary constraints, and lead to a further diluting of 
scarce fire research funding. Oversight and coordination are necessary 
to assure that critical diversity of scientific talent and critical 
funding masses be directed at problems for the protection of all 
regions and minimize disruptions to other ongoing research endeavors.

                            RECOMMENDATIONS

    We think S. 32 should not only address the problem of fire in the 
interior West, but also address this issue nationwide. This approach 
would enhance existing collaborative efforts to investigate and develop 
management tools that would enable public and private land managers to 
manage fires and prevent the spread of invasive species throughout the 
Nation.
    Some changes we recommend for S. 32 include:

  <bullet> Clarify the definition of adaptive management and the scope 
        of work of the centers relating to forest and rangeland 
        ecosystems research;
  <bullet> Ensure that research comports with criteria related to 
        quality, relevance and performance;
  <bullet> Participate in meeting national needs on complex problems 
        and permit the Departments latitude in the identification of 
        the optimal locations for the establishment of the centers 
        created under this bill;
  <bullet> Provide federal research and land manager oversight of the 
        program, including setting of priorities and direction, to lead 
        to selection of projects and products that are awarded on a 
        merit-based, competitive, and peer reviewed process;
  <bullet> Ensure accountability through ongoing monitoring and 
        periodic evaluation of funded activities;
  <bullet> Build on existing fire research and technology transfer 
        capacity to avoid unnecessary duplication of efforts and 
        resources;
  <bullet> Improve coordination of existing federal, state, university, 
        and private research capacity, and establish non-federal cost-
        share requirements; and
  <bullet> Utilize and improve existing authorities for centers of 
        excellence such as Cooperative Ecosystem Studies Unit program 
        and the granting programs of the Cooperative States Research, 
        Education, and Extension Service.

    We would like to work with the Subcommittee as it further considers 
S. 32.

         S. 278 MOUNT NAOMI WILDERNESS BOUNDARY ADJUSTMENT ACT

    The Department supports S. 278, a bill that would adjust the 
boundary of the Mount Naomi Wilderness in the Wasatch-Cache National 
Forest in Utah. We believe the boundary adjustment will create a higher 
level of wilderness value by improving the area's solitude, scenery, 
and pristine qualities. We supported similar legislation that was 
considered during the 107th Congress.
    The boundary adjustment would exclude approximately 31 acres of 
land currently part of the Mount Naomi Wilderness and, subject to with 
valid existing rights, would add 31 acres to the wilderness area. The 
bill also requires the Secretary to manage the 31 additional acres 
pursuant to the Utah Wilderness Act of 1984 (Public Law 98-428).
    This adjustment would allow for the alignment of the Bonneville 
Shoreline trail, which is a multi-county recreational trail. The trail 
is designed predominately for heavy non-motorized use, which does not 
conform to use as a wilderness trail. The boundary adjustment would 
also eliminate the need for a power line easement within the wilderness 
area, which is also a non-conforming use.
    This concludes my statement and we look forward to working with the 
Subcommittee. I would be happy to answer any questions you may have.

    Senator Craig. Jim, thank you very much for that testimony.
    Now, let me turn to Senator Kyl, the primary sponsor of S. 
32 for any comments and opening comments you would like to make 
and then we will turn to Dr. Covington for his testimony.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. I will just be very 
brief, because having an expert like Dr. Covington here--I 
appreciate the comments just made as well about his expertise--
is an opportunity for us. And so we do not need to regurgitate 
what we think we have learned from the likes of Dr. Covington.
    Let me just say that in all of the years that I have been 
in the Senate, one of my priorities has been the restoration of 
forest health, because I have learned from Dr. Covington why 
that is necessary, how it can be done, and I have tried very 
hard to find ways to advance the goal. This legislation is but 
one of the pieces of that puzzle to enable us to continue the 
fine research that he has been engaged in and expand that to 
other States and regions in the general area as well.
    So that is the reason for the legislation, and I assure my 
friends from the Department of Agriculture, does not take 
anything away from the research and planning that they do, the 
funding would be in addition to, and so we are not going to try 
to compete for scare resources.
    I think it is a real good bang for the small amount of 
bucks that would be involved in it, and would generate the kind 
of ideas that have now pretty much become accepted around the 
West as the way to try to restore our forests to their health.
    So that is the genesis of the legislation and you have, I 
think, already introduced Dr. Covington or provided his 
qualifications, and so I will not go into that again. But it is 
a real delight to have him here.
    It is always educational for me to visit his sites, his 
research sites, and I try to get other people to do that. The 
Secretary of the Interior was up, for example, going to the 
site. We had, I think, the rainy day of the summer, so maybe we 
will have to come back in order to get a little bit more rain.
    But I have also taken advantage of Dr. Covington's presence 
here to try to set up some other meetings today and tomorrow 
with other members who can come to appreciate what he has to 
offer. And we will be doing that too.
    Thank you very much for holding this meeting, Mr. Chairman. 
I appreciate it very, very much.
    Senator Craig. Senator Kyl, thank you very much.
    Dr. Covington, any of us who have spent time with forestry 
issues, forest health issues in the Senate and with this 
subcommittee, have in part become a disciple of your effort and 
the work you have done. And certainly Senator Kyl has been a 
loud and most appropriate advocate of it, so we are pleased you 
are before the subcommittee today and we appreciate your 
testimony. Please proceed.

 STATEMENT OF DR. W. WALLACE COVINGTON, REGENTS' PROFESSOR AND 
  DIRECTOR OF THE ECOLOGICAL RESTORATION INSTITUTE, NORTHERN 
                       ARIZONA UNIVERSITY

    Dr. Covington. Thank you very much, Senator Craig and 
members of the subcommittee. I really appreciate this 
opportunity to testify on behalf of this bill. My name is Wally 
Covington. I am Regent's Professor of Forest Ecology at 
Northern Arizona University and Director and Founder of the 
Ecological Restoration Institute in Arizona.
    I have with me two additional people. I have Diane Volsik, 
who is associate director of the institute, and Jim Gauz, who 
is a professor at the University of New Mexico. And Jim was 
actually my major professor when I was a graduate student at 
the University of New Mexico, so we go back almost 30 years in 
these endeavors.
    I will testify that we need to design and apply science-
based treatments immediately and at very large scales that 
simultaneously reduce the threat of wildfire and restore forest 
ecosystem health.
    I will further testify that conventional structures that we 
now have in place do not supply the kind of support that 
managers and local community groups need to design these 
treatments and get them on the ground.
    And finally, that the proposed institutes are essential in 
providing that kind of support so we can get on with the 
business of restoring forest health before we have additional 
half million acres fires, and the likely event that we will 
lose firefighter lives, but civilian lives, if the trends 
continue unabated.
    I do not need to tell you that the increase in fire size, 
frequency and severity has long been predicted and it is 
frightening. It is staggering what is occurring now.
    The intersection of drought, especially in the Southwestern 
United States, the dead--with the dead trees caused by these 
unprecedented bark beetle outbreaks is causing fuels to 
accumulate at the landscape scale, which will result in years 
of catastrophic fire behavior.
    The scale and quality and pace of our efforts to prevent 
these kinds of calamities is wholly unacceptable. It is 
unconscionable that we are allowing this to continue. We have 
to move forward with treatments on a scale at least of the 
Hayman fire, the Rodeo/Chediski fire of last season, on the 
scale of 100,000- to 500,000-acre treatment. And we must begin 
immediately.
    We cannot wait for conventional research to answer 
questions that need to be answered. And instead what we have to 
do is work in--as Jim Reaves was saying--work in an adaptive 
management approach collaboratively learning while doing.
    The institutes are needed for a variety of reasons. One is 
that we need--instead of conventional--our conventional kind of 
vulcanized support for these, we need to have comprehensive 
integrated support. We need support that brings researchers 
together to answer the questions that need to be answered so we 
can design the treatments to synthesize the information that we 
now have available through years of Forest Service Research and 
university research.
    We need to couple that with aggressive knowledge transfer, 
transfer of knowledge directly to the people that are trying to 
design and implement these treatments. And then finally, we 
need researchers and managers working hand-in-hand with 
community-based groups to make these treatments a reality on 
the ground.
    This gap in support that now exists can be resolved by 
these restoration institutes. We have proven this to be the 
case in Arizona. It has been very effective in working in 
getting 600,000 acres planned, 150,000 acres treated at a time 
that other entities are working on the scale of a few hundred 
acres.
    The institutes will work not in competition with 
conventional Forest Service research or university research, 
but rather be complementary with them. It is not that we will 
do different research, but what we are suggesting is an 
integration of practitioners, researchers, and community 
oriented folks in the institutes themselves. This is what we 
have in Arizona, and this is what has been very effective. And 
I think it is about time to wrap up here, so I will do that 
quickly.
    First, you know, I just in sum say that much good research 
is being done and has been done. However, the conventional 
research and technology organizations alone are not adequate. 
We need something unconventional, something new, a different 
approach to do this.
    University institutes have a great deal of latitude, and 
they have the needed creativity and adaptability to work with 
the local groups that need to get this done. This is not to say 
that we do not need the national focus that is looking at the 
big problems. But that alone is inadequate.
    We need local support to develop local solutions to local 
problems. And that concludes my formal remarks. Thank you very 
much.
    [The prepared statement of Dr. Covington follows:]

Prepared Statement of Dr. W. Wallace Covington, Regents' Professor and 
  Director of the Ecological Restoration Institute, Northern Arizona 
                               University

    Chairman Craig, and members of the Subcommittee, thank you for this 
opportunity to testify on a subject of personal importance to me and of 
critical importance to the health of our nation's forests and the 
people and communities that live within them.
    My name is Wallace Covington. I am Regents' Professor of Forest 
Ecology at Northern Arizona University and Director of the Ecological 
Restoration Institute. I have been a professor teaching and researching 
fire ecology and restoration management at NAU since 1975. I am a 
member of the National Commission on Science for Sustainable Forestry, 
the Society of American Foresters, the Society for Ecological 
Restoration, and other professional organizations dedicated to science 
based conservation of natural resources.
    I have a Ph.D. in forest ecosystem analysis from Yale University 
and an M.S. in ecology from the University of New Mexico. Over the past 
27 years I have taught graduate and undergraduate courses in research 
methods, ecological restoration, ecosystem management, fire ecology and 
management, forest management, range management, wildlife management, 
watershed management, recreation management, park and wildland 
management, and forest operations research. I have been working in 
long-term research on fire ecology and management in ponderosa pine and 
related ecosystems since I moved to Northern Arizona University in 
1975. In addition to my publications on forest restoration I have co-
authored scientific papers on a broad variety of topics in forest 
ecology and resource management including research on fire effects, 
prescribed burning, thinning, operations research, silviculture, range 
management, wildlife effects, multiresource management, forest 
ecosystem health, and natural resource conservation.
    My testimony will focus on the need to establish fire and forest 
ecosystem health restoration institutes in Arizona, New Mexico, and 
Colorado and how these institutes will make major contributions to 
reducing the threat of unnatural wildfire in the dry forest types of 
the West.
    In summary, I will demonstrate that:
          1. To provide a long-term, comprehensive solution to the 
        unnatural wildfire and forest ecosystem health crisis we need 
        to design and apply science-based treatments that 
        simultaneously reduce the threat of wildfire by treating the 
        cause of the crisis--degraded forest ecosystem health.
          2. A gap exists between getting what we know into the hands 
        of land managers, communities and other stakeholders that 
        influence treatment design.
          3. The proposed institutes, with a clearly defined mission of 
        producing and providing relevant science for land managers, are 
        essential to restoring forests and reducing the risk of 
        unnatural crown fire.

                               BACKGROUND

    The increase in fire size, frequency and severity in ponderosa pine 
ecosystems over the last 10 years is staggering. In 1994 I was senior 
author on a review paper that stated that we could anticipate 
accelerating forest ecosystem health problems including exponential 
increases in the severity and extent of catastrophic fires. I also 
predicted that there was a 15 30 year window of opportunity to avoid 
the disaster by restoring forests. Despite the fact that I had 
predicted recent fire size and severity, the fire seasons and huge 
unnatural fires of 2000 and 2002 have me shocked me to the core. 
Clearly time has run out for our dry forests.
    The intersection of the drought in the Southwest with dead trees 
caused by bark beetles, and steadily increasing fuels is setting the 
stage for another disastrous fire season, and many more to come. The 
fire behavior exhibited by the Biscuit, Rodeo/Chediski, Viveash, 
Hayman, and Cerro Grande fires make suppression efforts exceptionally 
challenging and demonstrates that there are limits to our ability to 
fight them. The fuels and extreme fire behavior in combination with the 
ongoing expansion of home sites in wildlands threaten civilian and 
firefighter lives, property, and sustainability of the nation's natural 
resources.
    The scale and rate of our efforts to reduce fire risk in the West 
are inadequate to solve the problem. Equally disconcerting is that in 
some cases treatments provide only short-term protection because they 
are not designed to address the underlying problem of forest ecosystem 
health. Observations from the Rodeo/Chediski and Hayman fires suggests 
that extreme fire behavior was reduced when the fires hit thinned and 
burned areas. Unfortunately, the treatments were too small to stop 
these fires. Treating 100 to 500-acre units is hardly a solution to 
fires at the scale of 50,000 to 500,000 acres in size.
    We must begin now to implement large-scale, comprehensive forest 
ecosystem health restoration treatments that provide adequate, long-
term protection to our forests. To do this effectively the treatments 
must be informed by good science that lead to effective treatments. 
However, many of the land managers, community members and other 
stakeholders lack the scientific information in a form useful for 
project planning, implementation and monitoring. It is the goal of this 
legislation to fill this gap.

                     WHY THE INSTITUTES ARE NEEDED

          1. To provide a long-term, comprehensive solution to the 
        unnatural wildfire and forest ecosystem health crisis we need 
        to design and apply well supported science-based treatments 
        that simultaneously reduce the threat of wildfire by treating 
        the cause of the crisis--degraded forest ecosystems.

    I would like to begin by clarifying that when I use ``restoration 
treatments'' I mean management actions in an intact forest that are a 
cure for declining ecosystem health and unnatural crown fire. By 
restoration treatments I do not mean just fuel treatment I mean 
comprehensive restoration of forest health. Restoration is also 
distinct from ``rehabilitation'' that describes management actions 
after a fire has severely burned an area. I believe the bulk of our 
efforts today should emphasize fighting fires before they occur by 
treating forests, not closing the barn door after the horses are out. 
In my opinion, once a ponderosa pine forest has burned severely we have 
failed.
    There is abundant scientific research that began in the 1890's and 
continues today that provides a sound scientific framework for 
implementing the science and practice of restoration. However, most of 
that research is not in a form readily accessible to practitioners, 
policy makers and concerned citizens. We have solid information about 
forest conditions prior to Euro-American settlement, changes in fire 
regimes over the last century, deterioration of overall ecosystem 
health, and ecological responses to thinning and prescribed burning the 
key elements of any attempt to restore ecosystem health in ponderosa 
pine and related ecosystems. We know that current overcrowded stands of 
trees do not sustain the diversity of wildlife and plants that existed 
a century ago. We know this by examining the data of early naturalists 
and scientists. We also know this to be true from primary research. 
Scientists that have compared biological diversity of overstocked 
stands stands that have had decades of fire exclusion--with open, park-
like stands that have not had severe fire regime disruption, have found 
greater plant diversity, greater insect diversity, and greater bird 
diversity. Similar studies have also found greater old-growth tree 
vigor and resistance to insect attack in open, park-like stands stands 
similar to those present before settlement. We also know that stopping 
ecologically based forest restoration that includes thinning, is not 
saving the forest as some would like you to believe, but only 
contributing to its demise and causing severe losses to the wealth of 
species that depend on it.
    Tragically, many treatments are designed to achieve socio-political 
acceptance rather than lead to the restoration of forests. To manage 
intelligently, treatment design should begin with solid science. Social 
tinkering will certainly play a potentially dominant role, but it 
should be done with an explicit understanding of the consequences. A 
good example of this is the frequent desire by some environmentalists 
and those oriented to commercial use to leave more trees than natural 
conditions would support. One hundred years of research shows that in 
the drought prone Southwest the land can only support 25 to 60 trees 
per acre depending on the site. The cost of leaving too many trees 
includes increased fire risk, loss of grasses and shrubs and their 
associated wildlife, and increased susceptibility to bark beetle and 
disease infestation.
    As a college professor I believe that when given good information 
most people will make the right choices. To recap, we have solid 
information about forest conditions prior to Euro-American settlement, 
changes in fire regimes over the last century, deterioration of overall 
ecosystem health, and ecological responses to thinning and prescribed 
burning the key elements of any attempt to restore ecosystem health in 
ponderosa pine and related ecosystems. We know that current overcrowded 
stands of trees do not sustain the diversity of wildlife and plants 
that existed a century ago.

          2. A gap exists between getting what we know into the hands 
        of land managers, communities and other stakeholders that 
        influence treatment design.

    The Ecological Restoration Institute works directly with land 
managers, community partnerships and other stakeholders to assist in 
the design and implementation of science-based treatments. After 
several years of work in the field we know that the integrated services 
we provide including applied research, monitoring, translation and 
transfer of scientific knowledge is appreciated and effective. There 
are many research programs doing good research. However, what 
distinguishes what the institutes will do versus these programs is that 
research is defined by what managers need to know and actively 
transferred to the people doing the work on the ground in forms that 
are readily accessible.
    In the next several years we will be treating forests at an 
unprecedented rate. If we use restoration approaches to reduce the 
threat of wildfire we will improve forest ecosystem health and 
simultaneously provide long-term fire risk reduction. If we merely cut 
trees we can reduce the risk of fire in the short-term but are leaving 
future generations with degraded forests.
    To progress with treatments intelligently land mangers, 
stakeholders and communities must understand what science tells us the 
forest needs. To keep pace with the current problem treatments must be 
applied, tested and refined in an adaptive management framework or more 
simply a ``learning while doing'' mode (as opposed to waiting for 
perfect scientific certainty). This means that each treatment will be 
comprehensive enough to improve forest ecosystem health and build on 
the knowledge of previous actions while also incorporating new research 
findings. It includes monitoring and active reassessment of each new 
treatment. Active monitoring has the dual benefit of providing good 
information to design effective treatments and some assurance to land 
managers, and other stakeholders such as environmental groups, that 
treatments achieve the desired outcomes.

          3. The proposed institutes, with a clearly defined mission of 
        producing and providing relevant science for land managers, are 
        essential to restoring forests and reducing fire risk.

    What is sorely needed now is the capability to support the design 
and testing of site-specific prescriptions in ongoing operational 
landscape scale treatments. Research to date indicates that alternative 
fuel reduction treatments (e.g., diameter caps for thinning) have 
strikingly different consequences not just for fire behavior but also 
for biodiversity, wildlife habitat, and tree vigor and forest ecosystem 
health. Treatment design should be based on what is needed to maintain 
health and reduce catastrophic fire.

The institutes will create the knowledge to help solve the unnatural 
        wildfire problem
    Significant scientific information exists to initiate the process 
of restoring degraded forests. However, research gaps still exist in 
understanding landscape scale treatments on wide-ranging animals, 
watersheds, the restoration of native plant diversity, and the response 
of fire to different treatments. The institutes will continue to 
develop research based on what land managers and other stakeholders 
need to know to solve the problem. In addition, the institutes will 
help in the design and implementation of monitoring that can inform an 
adaptive management approach.

The institutes will translate the knowledge so it is accessible to 
        managers
    We have a solid body of scientific information to design and test 
large-scale forest restoration that will protect people, communities 
and the forest. This knowledge and emerging research findings will be 
translated and synthesized into a variety of communication tools so 
that science-based recommendations are immediately useful to managers 
and others who want to solve the crownfire problems of the West.
    The rigorous use of science to design treatments will help build 
quality and credibility for the treatments. Experience in Arizona has 
shown that the probability of success is greatly enhanced if 
collaborators are supported by a comprehensive university-based 
restoration institute.

The institutes will transfer knowledge to practitioners, while 
        simultaneously educating the land managers of the future
    Through field training, community outreach, and continuing 
education the institutes will transfer knowledge and receive important 
feedback about what land managers and other stakeholders need. Many 
other more informal activities will also help transfer knowledge to the 
ground.
    Central to any institute will be the integration of students into 
all aspects of forest restoration. At the Ecological Restoration 
Institute students across disciplines are actively engaged in classroom 
and field research. In addition, we strive to put them into real life 
management situations so they emerge from college with practical 
knowledge of how to be effective professionals. We are graduating a 
workforce that understands the need for ecological restoration, 
resource sustainability and the demands of society.

                               CONCLUSION

    Time has run out. Inaction is taking, and will continue to take, us 
down the path to unhealthy landscapes, costly to manage. 
Scientifically-based forest restoration treatments, including thinning 
and prescribed burning, will set us on the path to healthy landscapes, 
landscapes like the early settlers and explorer saw in the late 1800s.
    State level, university based forest ecosystem health restoration 
institutes are essential for filling the knowledge gap that limits 
managers and collaborative groups from implementing treatments at the 
scale and pace demanded by the current forest ecosystem health crisis.
    Thank you very much for asking me to appear before the Committee.

    Senator Craig. Doctor, thank you very much.
    Let me turn to Senator Kyl to offer the first questions, if 
you would?
    Senator Kyl. Mr. Chairman, thank you for that courtesy. Let 
me see if I am a good student here. First of all, since he 
brought his teacher, I can ask Dr. Covington if I passed the 
test now.
    I think I learned that because our forests today so much of 
the time are so choked--the phrase that Dr. Covington taught me 
was the dog hair thicket. For those who do not know what it 
means, it is----
    Senator Craig. Full of fleas, right. All right.
    Senator Kyl. The trees are so close together, they are all 
old and snarly and very close together, a dog cannot run 
through without losing half of his hair.
    Well, the older tree here is not the big tree that I am 
holding in my right hand, but the smaller tree here. This tree 
is older--excuse me, this tree here is older, yet much smaller, 
because it was one of literally hundreds if not thousands of 
trees in the acreage in which it was located all competing for 
the same nutrients and water and sunlight and the soil, and 
crowded together, trying to push each other out of the way for 
what they could get.
    Here is a tree in a much more open environment, where the 
forest was thinned and there had been prescribed burning, and 
as a result the tree grew to be the size in a very short period 
of time--I believe this tree is less than 100 years old. And it 
shows what can happen when we open up the forests and permit 
the trees to grow the way they used to grow when we had healthy 
forests. Now, have I got that right, Dr. Covington?
    Dr. Covington. Right.
    Senator Kyl. Okay. So the basis for the research that you 
have been pioneering is to establish that through this thinning 
process with appropriate prescribed burning, we can restore the 
forest to their previous healthy condition.
    Dr. Covington. Correct.
    Senator Kyl. Now, you have also taught me that a lot of 
this is fairly site specific, and so I have been to your 
research plots and you have mentioned to me that this is 
perhaps a little different than it might be in New Mexico or in 
Colorado or certainly in the much faster growing States such as 
Senator Craig lives in in Idaho. But in Senator Bingaman's 
State and mine, we are going to be more on the edge of the 
environment with a lot hotter climate, less water, and a more 
fragile environment where we really have to watch it in order 
to make sure that our forests are healthy. Do I still have it 
right?
    Dr. Covington. Right.
    Senator Kyl. Okay.
    Dr. Covington. You are on a roll.
    Senator Kyl. Well, and that being site specific, you have 
also gone out and very carefully measured the results of the 
research so that you can calculate how much more pitch content 
the trees have, thus to fight off bark beetle, how much more 
protein content the grasses have--there did not even used to be 
grasses, if you have got a big canopy covering up the forest 
floor--all of the different species of butterflies, and birds, 
and other animals that can move into the forest demonstrating 
its healthy quality, but that each of these depends on a fairly 
site specific situation, which is the kind of research that 
your institute is oriented to do, is that right?
    Dr. Covington. That is correct.
    Senator Kyl. And so--and therefore in conclusion, that 
rather than trying to prescribe some one size fits all program, 
what I--one of the things that I have learned from you is that 
you really have to go to each site and ask the question and 
what is the healthy thing to do here?
    One particular area may have a carrying capacity that is 
far greater in terms of trees than another, and it could stand 
higher diameter trees and lower diameter trees. Another site 
may only be able to carry a few trees perhaps of higher 
diameter. And it will be different from State to State and 
certainly even within a forest from area to area. Is that 
further right?
    Dr. Covington. Yes, correct.
    Senator Kyl. And so I make this point to illustrate the 
fact that as we tried to craft legislation last year, there was 
a real effort to kind of focus on a one-size-fits-all kind of 
system.
    Some said, ``Well, let us have a diameter cap on the 
thinning.'' And I kept saying, ``No. No. No.'' It may be in 
some areas--if you were to ask Dr. Covington he would say, 
``Boy, in this place, do not cut anything over 16 inches,'' but 
he may not.
    He may say, ``Look, this area can only sustain 200 trees, 
so let us pick out the ones we want, starting with the great 
big ones. But that may have to mean that we have to cut a few 
trees larger in diameter than 16 inches if those trees are in 
effect left over and are going to continue to compete.'' Is 
that further correct?
    Dr. Covington. Right.
    Senator Kyl. So what I am trying to suggest is through this 
kind of research at this kind of institute, that is site 
specific in the State of New Mexico, in the State of Colorado, 
and in the State of Arizona, at least in our area of where the 
great Ponderosa pine forest of the Southwest is located, we 
should be able to get it right. But it may not be research that 
we would necessarily want to apply in a State like Idaho or the 
State of Washington, or certainly in the Southeast United 
States.
    Let me just, if I could for the recorder, I think you will 
have to answer audibly rather than nodding your head.
    Dr. Covington. Yes.
    Senator Kyl. Okay.
    Dr. Covington. Sorry.
    Senator Kyl. Just two other quick--is my time up, Mr. 
Chairman?
    Senator Craig. We will tolerate the dialogue a bit longer 
because I happen to agree with you.
    [Laughter.]
    Senator Kyl. Just two quick things.
    Senator Craig. Surely, go ahead.
    Senator Kyl. This is illustrative. And I think that we 
obtained these from you, Dr. Covington.
    Dr. Covington. Yes, that is right.
    Senator Kyl. You described them. But what a wonderful name 
of this location, Horse Thief Basin, in Arizona. And it reveals 
what condition of the forest?
    Dr. Covington. Yes. This is bark beetle kill that occurred 
last season, and you can see 80 to 90 percent of the trees are 
dead in here. This is--unfortunately the way the bark beetle 
population dynamics work, this literally is the tip of the 
iceberg. There should be about eight to ten times as much 
mortality next year as we had this year. And this is throughout 
northern Arizona and New Mexico and Colorado as well, and 
Idaho, for that matter.
    So what happens when we have that kind of fuel condition 
and a fire comes through? It is when we get fire behavior that 
makes last year's fires look highly desirable compared to when 
it is burning through----
    Senator Kyl. Because these dead trees are more prone to 
burn.
    Dr. Covington. Right. They are more prone to burning with 
very dynamic fire behavior.
    This is the Rodeo/Chediski fire. You can see the burned 
area lower left. You look in the upper right, that is an area 
that had a restoration thinning. It is called treated. And you 
can see the fire came up to that, went out, and then burned 
around it and burned on the backside of it for thousands of 
more acres.
    Currently when you fly over the Rodeo/Chediski fire, and I 
know you have seen this too, Senator Kyl, is you see these 
little green islands. The green islands are the ones that got 
treated before the fire. The rest of it is a black charred 
landscape.
    Senator Kyl. Thank you very much for your indulgence.
    Senator Craig. Well, thank you very much, Senator and Dr. 
Covington. I mean, we are all well aware and very concerned 
about the state of our forest's health right now, and 
especially in the great basin west and throughout the Southwest 
as we watch this tremendous buildup of wildfires.
    I will ask you some questions, but let me turn to you 
first, Jim. We have seen more wildfires in the past fire season 
and we are, you know, spending more and more money to suppress 
these fires. I do not know what, we had a billion dollars last 
year----
    Staff. $1.4 billion.
    Senator Craig. $1.4 billion?
    Staff. Yes.
    Senator Craig. If we do not begin to go out into the 
forests and reduce the fuel loading, not just in the wildland 
urban interface, could you describe for me what you think our 
Federal forests will look like, say, 25 years from now? Both 
Jims or--both Jims, yes, you can both answer that. I guess BLM 
has some forest responsibilities, too.
    Mr. Reaves. Yes, Mr. Craig. If we do not begin to address 
these fires, of course, the fuel loading will--the fuels will 
increase and lead to more catastrophic fires. We all agree on 
that. What we are doing in our research to address this problem 
is we have in our developing models to look at this through 
visualization models.
    Researchers can simulate these types of fires and get an 
idea of how the forest would look as they burn through these 
fires under various conditions.
    The research we are doing now not only in the interior 
West, but all over the country is to look at these models and 
try to get a breadth and depth of information to provide 
information to the land manager and to the user to reduce the 
economic impacts and the damage to the forest.
    So we realize this and are continuing to increase the 
technology in this area through these models and through 
developing demonstration projects on this to show what exactly 
fires can do under these conditions.
    Senator Craig. Did you have any wish--any comment?
    Mr. Hughes. I think Senator, looking at what happened last 
summer and last spring tells us that our watersheds will be in 
danger if some of these fires burn so hot. The ground was 
actually sterilized. It will take years to recover in some 
cases.
    The costs to local communities in lost tourism dollars, the 
economics in our rural areas will just be devastated if this 
stuff keeps going. I mean, I do not think anybody really 
questions that.
    Senator Craig. And I think that for the record it is 
important to say that last summer certainly was a tragic 
summer, but it was not just last summer. It was the summer 
before and the summer before and the summer before. And we have 
seen this ramping up or escalation in total acres burned on an 
annual basis since--especially since the late 80's or I should 
say the late 90's, but--and I mean it is indicative of the 
growing problem.
    And now we have this massive bug kill going on that is the 
result of a stressed forest environment and I am glad, Dr. 
Covington, you have mentioned Idaho. We have literally got tens 
of thousands of acres that are taking that color in Idaho, so 
it is a tremendous concern.
    Dr. Covington, let me turn to you. On page 3, you said that 
in your opinion once the Ponderosa forest has been served 
severely, we have failed. You said that in reference to the 
need to complete restoration treatment. Could you explain what 
you mean, how long will it take areas like those burned in the 
Rodeo fire to recover, of the kind that the Senator just 
displayed on that--in that photograph?
    Dr. Covington. Yes. I would be glad to, of course, respond 
to that. First, you know, with the 25-year timespan easily half 
of our frequent-fire forests are going to look like that Rodeo/
Chediski burn unless we get on top of this.
    And what I mean by if we do not get in with preventative 
treatments, it is really closing the barn door up after the 
horses have already gotten out. When you look at the amount of 
money you have to spend to set these burned areas, the least 
impacted of these burned areas, on a pathway to forest health, 
it staggers the imagination. It is at least 100 times what it 
costs to do preventive treatments once the area is burned.
    And many of them for all practical purposes have a recovery 
period of probably measured on the order of 1,000 to 5,000 
years. These are the severely eroded areas that occur in these 
big fires, and we have--I know Senator Kyl has been on the 
ground. You have seen this up in Idaho as well; Senator 
Bingaman, you have seen it in New Mexico, is severely eroded 
channeled landscapes. The soil is rapidly on the march to the 
seas again.
    In those areas, there is really nothing, there is no amount 
of money you can spend to get them on the pathway to forest 
health. So prevention--just like in human medicine, prevention 
is the wisest investment of money. It is not recovery after the 
disaster has occurred.
    Senator Craig. You also said that if we just cut trees to 
reduce the risk of fire in the short term, we will be leaving 
future generations with a degraded forest. Could you explain on 
that? What do you mean, and what must we do in your mind to 
avoid that future?
    Dr. Covington. Well, what I was getting at there, Senator 
Craig, is that if we just treat the symptoms of forest health, 
we are not getting at the underlying problem. In lots of--if 
you just go in and thin enough trees so you do not get crown 
fires, you do not thin enough trees to prevent bark beetle 
outbreak. You do not thin enough trees to prevent forest 
diseases from occurring and to restore healthy watersheds.
    So this piecemeal approach will not work. We do not have 
enough money in the treasury to get in and treat each symptom 
as it shows up on here. We have got to get at the underlying 
problem, so just like going into see the doctor--you go in and 
you have got a 105-degree temperature, and he says, ``Gosh, 
that is a heck of a temperature. Let us get that temperature 
down.'' If all he does is put you in an ice bath to lower your 
temperature and not get at the root causes of the disease, he 
has not helped you to heal as a patient. So that is what I was 
getting at in that part of the testimony.
    Senator Craig. Thank you.
    Senator Bingaman, questions?
    Senator Bingaman. Yes. Thank you very much, Mr. Chairman, 
and thank you to all the witnesses. Dr. Covington, I was up in 
northern New Mexico visiting Tent Rocks Monument the other day, 
and one of the people from the BLM was showing me around. We 
were driving up there and looking at all of the bark beetle 
damage, all of the trees that have died from bark beetle 
infestation.
    And I said, ``What can be done to prevent this?'' You were 
talking about prevention?
    Dr. Covington. Correct.
    Senator Bingaman. I said, ``What can you do to prevent 
this?''
    He says, ``Nothing, because once you see it, it is too 
late.''
    What can be done to prevent the loss of the rest of our 
forest in northern New Mexico or a lot of New Mexico, not just 
the north, but particularly in northern New Mexico and a lot of 
the west from bark beetle infestation.
    Dr. Covington. Yes. It is very--interestingly the 
treatments, the same treatments that restore forest health and 
prevent crown fire prevent bark beetle infestation. So they--
what--when we see those brown trees as--like you saw, it is too 
late. There is nothing you can do once they have been attacked 
by the beetle at that kind of level.
    But the irony is, of course, that we have known this was 
going to happen for years. Foresters and ecologists have been 
predicting these bark beetle outbreaks, just as they have been 
predicting the crown fires that have occurred, the crash of 
forage, of herbaceous vegetation productivity. None of this is 
a surprise.
    Senator Bingaman. You are saying that the thinning not only 
prevents the fires, but it also prevents the bark beetle 
outbreak?
    Dr. Covington. Yes, it does.
    Senator Bingaman. And----
    Dr. Covington. And it does that by increasing the vigor of 
the trees. There is just a fixed amount of water and energy 
that is available on a particular area. If it is overstocked, 
then you run the risk of you do not have enough vigor to resist 
disease and insects. It is not just fire, but it is also biotic 
causes of death.
    Senator Bingaman. Well, is it not the logic that flows from 
that now that the bark beetles have killed off half the trees 
or two-thirds of the trees or whatever in some of these areas, 
is there not enough moisture and resources, nutrients in the 
ground to sustain the few remaining live trees?
    Dr. Covington. Yes.
    Senator Bingaman.Are they still at risk?
    Dr. Covington. Well, they are still at risk. Once bark 
beetles build up their populations to a high level, you can get 
so many--you can get such a large number of beetle attacks per 
square foot of bark that even a healthy tree cannot resist 
them. But for the trees that are--that do survive this intact, 
they will have been thinned. And if they do survive, then they 
ought to be able to grow rapidly.
    Now, what we see in--unfortunately is with these huge 
attacks, there are not sufficient trees to start with again. 
What you would have to do is go in and cut down those trees, 
get them out because what they are going to do, of course, is 
you now have not just surface fuels, but you have red needles 
in the canopies of the trees. So when a lighting strike does 
occur or the errant cigarette butt or whatever it is that 
starts a fire, it burns and burns with a severity like we have 
not see in the Southwest yet.
    Senator Bingaman. So you are saying that it is a very high 
priority, particularly in these areas that have been hit by 
bark beetle infestations that we get in there, cut out the 
trees that have died, and get them out of there?
    Dr. Covington. Yes. And to prevent the catastrophic 
landscape scale fires that we have seen in Idaho already.
    Senator Bingaman. So comparing the--if we have a limited 
number--amount of resources, we have the choice of either 
thinning areas, I mean doing regular thinning like we always 
have talked about around here, of regular forest or thinning 
the areas that have been most severely damaged by bark beetles. 
Would you say that the priority needs to be put on getting the 
bark beetle infested areas cleared out first or not?
    Dr. Covington. Boy, that is a tough call. In fact, on areas 
that have already been hit severely by bark beetles, that--they 
are almost like areas that have already been burned. So it 
would be--it would depend on the particular situation.
    If in that Horse Thief Basin photo there, that one is a 
goner basically. There is not much we can do with--when the 
infestation is at that level. If----
    Senator Bingaman. Yes, but you are saying there is going to 
be a fire that is going to be worse than any we have ever seen 
if that is hit by lighting?
    Dr. Covington. Yes. And that is highly probably.
    Senator Bingaman. Yes.
    Dr. Covington. That is very likely to occur. The residual 
green trees that they--that are in there, some of those--I have 
walked through this area--and some of those are green but dead. 
You know, they still have--they are still green, but they are 
just oozing pitch and they have a very high level of bark 
beetle attack.
    There are areas--this is one of the worst areas in Arizona. 
There are other areas where maybe 15 percent of that scene that 
you see there would be brown. And in those areas----
    Senator Bingaman. You are saying that they are going to all 
look like this in another year or two?
    Dr. Covington. Yes. Yes. That is for that particular area.
    So given limited resources, I--the scene that you are 
looking at there, I would probably write that one off as far as 
saving those live trees in there. I would look at just trying 
to prevent a landscape scale fire.
    On other areas that are not yet infected with bark beetle, 
I would get in there and try to thin them down to the level 
that the tree's vigor can be increased to resist bark beetle 
attack. And we know this works.
    Senator Kyl alluded to this from some of our research--
from--that is now 10 years ago in which we saw that when we 
went in and thinned dense areas of Ponderosa pine, the residual 
trees started growing like teenagers. And they started 
producing pitch levels that would easily provide defense 
against bark beetles.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    Senator Craig. Senator Kyl, further questions?
    Senator Kyl. Thank you. That last line of questioning of 
Senator Bingaman, I think, is particularly interesting, because 
there are some tradeoffs that are necessary. You all have 
budgets that you have to deal with all the times, and I--there 
are though decisions to make, I know. And then we have 
legislative ideas too.
    And let me talk about some of the legislative ideas, 
because it seems to me that there might be some myths here, and 
maybe this is a good time to actually get to the facts.
    One of the ideas that has been floating around is that we 
should give priority to what is called wildland urban 
interface, the point at which the bulk of the forest comes up 
to a community or a community of summer homes perhaps, some 
kind of urban environment. And that that should be a priority, 
that we have got to thin right around that area.
    Another is that if you have a particular watershed, you 
need to be sure to thin there, because we do not want that to 
burn and destroy the streams that provide the water and so on.
    There are others who say if you are concerned about 
endangered--or, in fact, all species, if you are concerned 
about the flora and the fauna of the forest, you cannot just 
focus on where it interfaces with something else, because that 
is where the fire could well start. And all of that could be 
burned up and you could destroy habitat for endangered species 
and so on.
    Could you speak to--and then, of course, you have the 
downed timber, you have the burned that is subject to reburn, 
and you have the bark beetle that Senator Bingaman is talking 
about. Talk a little bit further--and all three of you are 
welcome to join in, but let me go first to you, Dr. Covington, 
about the kind of considerations that you give.
    Obviously, if you could do it all, you would try to do it 
all. So the--what are some of the considerations that you 
engage in in deciding whether to give priority to one in a 
certain circumstance over another in another circumstance? And 
how should that be reflected in our legislation; in other 
words, is large-scale treatment really something that we ought 
to be focused on?
    Dr. Covington. Generally, greater ecosystem scale 
treatments, of what we--we need to be treating areas on the 
scale of the disturbances, so 100,000 to 500,000 acre units. I 
do not think it would be wise to develop some kind of a 
national categories of how you should implement these 
treatments. I think that is best done at the local level. So a 
local collaborative group, the local agencies and the local 
communities should get together and design their own 
priorities.
    What is the urban wildland interface? How far out should 
that be? I do not think we should--just like with diameter 
caps, I do not think we can say it is a quarter mile, a half 
mile or seven miles out.
    It is dependent upon the local situation. And the people 
that actually have to live with the outcomes of the decisions 
should have a lot of input into what those decisions are.
    The urban wildland interface on a steep slope in the 
Southwest is going to have a different definition than on a 
flat slope in the Northern Rockies. So it--you cannot make hard 
and fast rules, I think, about that.
    The same thing with key cultural areas of the landscape, 
municipal watersheds, critical watersheds. All of those areas 
have high priorities strategically locating these fuel breaks 
and prioritizing them, I think, has to be done on the project 
level. And that is one thing with the institutes that I think 
is very important.
    The Joint Fire Sciences Program, the national work that the 
Forest Service is involved in is great work for developing 
general principles. But when it comes down to supporting these 
kind of local half million acre, million acre decisions, you 
need local expertise and it has to be customized to the 
problems that are being--that are brought up during the course 
of project design.
    So no easy and fast treatment, but those elements that you 
just described--the urban wildland interface, critical wildlife 
habitat, municipal watershed, wilderness areas, national parks, 
these kinds of treasures, the keystone elements in the 
landscape--should be protected first and foremost.
    But in the fullness of time and there is not a lot of time 
left--in the fullness of time we have to treat the entire 
landscape to get healthy landscapes, not just healthy patches 
left on for us to pass on to future generations.
    Senator Kyl. Did you want to add something else too?
    Mr. Reaves. Yes. Thank you. We, too, believe that at the 
local level people should have--or communities should have the 
right tools to determine how to prioritize what is treated and 
what is not treated.
    Much of our research is aimed at that. For example, we are 
doing research in southern Utah on fuels, fuels management 
projects where we look at alternatives of thinning. We look at 
pruning, and we are looking at various fuel treatments at the 
landscape level in these areas. And also this is going to be 
completed in 2003.
    In addition to that, the Healthy Forest Initiative that the 
administration has put forth--put forward, as you are aware--
what the administration is trying to do is reduce some of the 
rules and regulations to allow managers to treat and to move 
into these areas to reduce some of these catastrophic wildfires 
and provide those tools for them. And that is what we want to 
do. We want to provide those tools for land managers, not only 
in the West, but all over the country. Thank you.
    Senator Kyl. Thanks. I have one more question.
    Senator Craig. Well, why do you not finish yours? I have 
got a couple; then we can wrap up.
    Senator Kyl. All right. Well, right on this last point, 
one--another one of the ideas that Senator Craig and I have 
heard expressed is that we should focus on categorical 
exclusions rather than the wide area treatment. And we have 
seen the effect of that, and I wanted to ask Dr. Covington 
about this in the Rodeo/Chediski fire.
    We have three situations going on there. The White Mountain 
Apache Tribe is getting huge quantities of salvage timber as we 
speak off of their land. They have done their environmental 
work, but they are cutting a lot of timber, and are hoping to 
ameliorate the costs that they had suffered as a result of that 
huge forest burning on their land.
    The Forest Service has divided theirs into two pieces 
basically. Under the law, they can categorically exclude 
certain areas around communities, roads, trails, camp sites, I 
think, and so on, and proceed with an accelerated plan there. 
And they are still studying, and hope to complete, I think, by 
May--and if I am wrong, let me know, but I think by May they 
are supposed to have the work done, all the environmental work 
done on all of the rest of the forest, which is by far the 
larger amount.
    As soon as they noticed the proceeding on the area 
categorically excluded, Mr. Chairman, a group out of Santa Fe, 
New Mexico filed a lawsuit, stopped it dead in his tracks.
    I hate to imagine what will happen when they conclude their 
work on the remainder of the forest in May and try to propose 
working on that. What I would like to ask about is the sole 
question of, A, whether we ought to focus just with categorical 
exclusions or whether that really solves everything; and B, 
this matter of salvage. Is it essentially similar to the 
situation with bark beetle, important to get that timber out 
when you can?
    Start--start with you, Jim, and then Dr. Covington.
    Mr. Reaves. We feel that we should not just focus on just 
categorical exclusion. We feel that there is a balance needed 
here and that we are using all of our research tools and 
management tools to help actively manage forests. And I think 
the chief has said that he is in favor of actively managed 
forests to produce more productive forests.
    So on that note, Mr. Kyl, no, we are not saying just use 
only categorical exclusion.
    Dr. Covington? Just in brief, regarding categorical 
exclusions, this particular 25,000 acres that the Apache 
National Forest is putting up, the lawsuit as I understand it, 
is saying that is far too large of an area for categorical 
exclusion, and that rather categorical exclusions should be 
used on 20- to 50-acre scale. And clearly if 25,000 acres is 
too big, then categorical exclusions cannot be used to solve 
this problem.
    The other issue linked to utilization is if we are going to 
utilize either bark beetle killed or fire killed timber, it has 
to be done pretty quickly. And the pace of project design, NEPA 
document preparation, and getting an actual project on the 
ground is so slow that it is very difficult under current--our 
current situation, it is very difficult to see much utilization 
occurring outside of the reservation lands from the Rodeo/
Chediski fire.
    And I think that is unfortunate. One--when you--when we 
talk about greater ecosystem health, we have to realize that 
this includes human communities in the ecosystems. And healthy 
human communities after all are at the heart of why we are 
concerned about ecosystem health.
    So to get those healthy human communities we have to look 
at this in a comprehensive holistic way, and it has to be done 
in a timely fashion. There just is not time.
    If this were 40 years ago, we would have time to fool 
around with all kinds of stuff, but we do not have that time. 
We have got to do this in an adaptive management fashion. We 
have got to think big and we have got to act big. And we have 
got to do it right now.
    Senator Kyl. Thank you.
    Senator Craig. Thank you very much, Jon.
    Jim, I want your assurance Forest Service personnel will 
come up and meet with our committee staff and Senator Kyl's 
staff hopefully no later than next Wednesday so that we can 
move this bill along, consider your specific concerns about it.
    Obviously, we are all concerned about dealing with this 
issue, and we know that you are all full bore at it. But we 
think a case can be effectively made for the legislation at 
hand. And so I hope we can have your assurances that we can 
work cooperatively to fashion a piece of legislation or adjust 
the Kyl legislation with some of your concerns in it.
    Mr. Reaves. Yes, we would be glad to come up at your 
convenience to work with your staff and----
    Senator Craig. All right. Also I would like to have you do 
something else. I know that every year you fly and photograph 
and we get a feel for this bug kill.
    I would like to have a reasonably good guesstimate of total 
acres of infestation at this time, if you could come up with 
that figure on the forest and public lands--our forest 
preserves.
    Mr. Reaves. Yes. We will provide that to you, Mr. Craig.
    Senator Craig. Dr. Covington, while I might agree with you 
based on observation and knowledge of your reaction to the 
Horse Thief Basin that it is too late there. It is too late 
there, but that is a beautiful box of kindling wood sitting 
there, and what about the adjoining areas? I think Senator Kyl 
was speaking to that to some extent.
    If that were to catch fire in the way that we have seen 
fires of the last year, it would not only take Horse Thief, it 
would take a lot of surrounding area with it. So instead of--
and we know that dollars are short and time is short and 
tempers are short here also. We have still got a community of 
people out there that basically is in the burn mode and they do 
not give darn much care about anything and especially they have 
given no care for the human communities that you have spoken to 
that are at risk here also. What do we do? The edges?
    Dr. Covington. Well, your analogy of it being kindling on 
the landscape is a perfect analogy.
    Senator Craig. Or I could say so many gallons of gas per 
acre. It is fuel. It is ignitable. It goes boom.
    Dr. Covington. And the fact that an area has bug kill--has 
been killed by bugs, by bark beetles and has the red needles in 
the canopy still puts at risk a greater ecosystem of a half 
million acres. So you can see a fire starting in Horse Thief 
Basin, going over the rim and burning up most of the Bradshaws 
on the scale of the Rodeo/Chediski fire.
    And so in a sense if we do not do something about that, it 
really is negligence to the greater ecosystem to not do 
something about that kindling. And this is around communities 
throughout the Western United States.
    The city of Prescott and Flagstaff is surrounded by huge 
bug kills and the--I--there is a very real possibility that 
Prescott will be the Show Low, which is the Rodeo/Chediski fire 
of 2003 or 2004. We are just not able to--currently we are not 
moving at the pace that we need to to get this kindling off the 
landscape.
    Senator Craig. Well, I thank you for that. We have got 
examples of that all over my State, and they are building. And 
that is the bad news. And then we add bad news to it. We had 
Mark Rey up last week, I guess, to talk about--or a week 
before--to talk about the potential fire patterns of the coming 
season.
    And I guess the good news is that the Southwest is in a 
little better shape. But it seems that we are migrating back to 
the Northwest again where we burned very heavily in the late 
Nineties. And we may be back in that scenario. We lucked out 
last year.
    You started burning very early, and fortunately enough, 
although we had a lot of starts, we got them out. We got some 
late moisture, and it held us down. Thank goodness. But we 
still had the worst--I guess, one of the worst fire seasons 
ever.
    And as I was telling Senator Bingaman whether we can treat 
a million acres a year or more if we were allowed to, the 
reality is we are still going to lose millions of acres a year 
for decades to come because we simply cannot get there. And we 
are not going to be allowed to get to some of it. So priorities 
are a reality and--that we have got to face. And certainly we 
hope that concepts like you are talking about in being able to 
employ and work cooperatively with the Forest Service may 
effectively broaden a base of understanding as well as a matter 
of treatment.
    As we explained the need to the countryside, I think there 
was some awakening in the past season. So, Doctor, thank you 
very much for coming and spending time with us, being the 
advocate that you are and the scientist that you are in proving 
the points that you have made here so effectively. It is 
greatly appreciated at a time when truly our forested lands of 
the nation--not just in the Great Basin West, but throughout 
the country--are at risk today more than they have ever been.
    Jim, as it relates to 203, we will work with you on the 
type of mineral involved here to make sure that we meet those 
qualifications. I am sure that Senator Enzi will want that and 
be willing to work and cooperate with it.
    Jim, as it relates to 278, Mount Naomi borders Idaho. And 
we are very concerned that we can work closely with you and 
closely with Logan and Utah State University to make sure that 
this thing gets done the way we want.
    We also understand there is a Lake Bonneville shore trail 
system there to be concerned with. We know that it is some 
acreages, and we ought not have a problem in dealing with that. 
So we will work cooperatively with you on that.
    Mr. Hughes. Thank you.
    Senator Craig. Thank you all very much for your testimony 
and for building the record. We are in tragic situation with 
our forested lands, and I hope we can deal with them 
effectively.
    Senator Kyl.
    Senator Kyl. Mr. Chairman, I just want to say thank you one 
more time. I hope that people other than people in Idaho 
appreciate your leadership. You know this subject. You have 
been an indefatigable worker in--behind the scenes to try to 
get legislation like this done in support of the President's 
program, which we are all very supportive of getting passed. 
And holding hearings like this one today is a critical step in 
that process, and I just really personally thank you for 
assisting us with the bill.
    Senator Craig. Well, thank you very much for those 
comments. The committee will stand adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Dr. Covington to Questions From Senator Domenici
    Question 1. Dr. Covington you've spent 27 years teaching and 
researching the Ponderosa forests of the Intermountain West. Over the 
course of these years you have to have seen dozens if not hundreds of 
fires. What is different about the fires we have experienced in the 
last couple of years?
    Answer. What is different about today's fires is not that there are 
more of them, but that they are larger (often by a factor of 5-10) and 
more severe. The Rodeo-Chedeski fire was fully 100 times larger than 
the large fires of the previous decades.
    Question 2. What resource values do you believe we are losing in 
these large fires?
    Answer. All resource values (timber, range, recreation, watershed, 
and wildlife) are severely threatened by these large severe fires. 
Biodiversity losses are long term.
    Question 3. How many years will it take, after these high intensity 
fires, before they can function as a forest ecosystem, in a way similar 
to how they functioned before the fires?
    Answer. The severe fires we are now witnessing degrade soils and 
watershed. function. It will take centuries to millennia for these 
forests to approach natural structure and function.

    [Note: Responses to the following questions were not 
received at the time this hearing went to press.]

      Questions From Senator Domenici For Deputy Secretary Griles

    Question 1. IPAMS Testimony: IPAMS testified that their 
study, based on BLM's own data, shows that it takes, on 
average, 137 days to process a permit. They also spoke to the 
increasing concern of oil and gas production by ranchers and 
landowners as an issue they have ``inherited''.
    Is IPAMS number an accurate estimate and if not can BLM 
provide a more accurate number?
    What responsibility does an oil and gas leasee have with 
the landowner or grazing permittee that is not governed by 
BLM's administrative oversight responsibility of a lease?
    Question 2. Lease Stipulations--The Wilderness Society 
presented some BLM tables on wildlife stipulation waivers from 
Wyoming.
    How are these types of stipulations administered and under 
what circumstances are waivers granted or denied?
    How would you explain that wildlife values are in fact 
being protected when waivers to stipulations are granted.
    Question 3. The National Renewable Energy Laboratory 
identifies significant potential to produce solar, wind, 
biomass, and geothermal energy on Federal lands. The 
President's National Energy Policy also makes several 
recommendations regarding renewable energy on Federal lands--
including a direction to DOI and DOE to re-evaluate barriers to 
increased renewable energy production.
    Once a resource is identified, what are the barriers to 
production of renewable energy on Federal lands? Are these 
barriers any different from those faced by conventional energy 
projects?
    Are there possibilities for co-production of renewable and 
conventional energy sources on a single lease, and has the 
Bureau studied that possibility?
    Could reductions in royalty rates be useful in encouraging 
development of Federal renewable resources? What other 
legislative or administrative actions can be done to increase 
production of renewable energy from Federal lands?
    How are leasing and access decisions treated for each of 
the renewable resources (geothermal, wind, biomass, solar, 
hydro) and is it easier to develop one resource over another?
    What can be done to increase the ease of siting new 
transmission on Federal lands, to aid development of both 
renewable and conventional energy resources on Federal lands?
    How difficult will this siting become with the increasing 
protective withdrawals placed on public lands by administrative 
determinations such as in wilderness study areas and the 
roadless rule?
    Question 4. I&E Resources: It seems clear that BLM is in 
need of additional resources to oversee an expanding oil and 
gas program. The BLM budget request indicates there are over 
94,000 existing wells and only about 150 employees for I&E 
work. This equates to over 600 wells per I&E employee.
    How does the BLM I&E program currently handle this kind of 
workload?
    Is this indicative of why surface owners and users are 
increasingly concerned about the impacts associated with oil 
and gas production?
    With the public need to for increased production but also a 
public concern for protecting public resources, what will the 
Department need for monitoring and oversight for the increases 
in workload likely to occur in the future?


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                           New Mexico Highlands University,
                                                 February 26, 2003.
Hon. Pete Domenici, Chair
Hon. Jeff Bingaman, Ranking Member
Energy and Natural Resources Committee, Dirksen Senate Office Building, 
        Washington, DC.
Re: [S. 32] Southwest Forest Health and Wildfire Prevention Act of 2003

    Dear Senators Domenici and Bingaman: I appreciate the opportunity 
to offer the following statement for the Subcommittee on Public Lands 
and Forests hearing to be held tomorrow.
    We at New Mexico Highlands University, wish to thank Chairman Pete 
Domenici and Ranking Member Jeff Bingaman for introducing the Southwest 
Forest Health and Wildfire Prevention Act of 2003 [S. 32]. This 
legislation, if passed, will provide a long-term mechanism for 
research, education and community outreach to address the wildfire 
problems in Arizona, Colorado and New Mexico.
    We believe that it is necessary legislation and should be passed 
with dispatch. Given the catastrophic wildfires of the past few years 
and their effects on our nation's watersheds, this action should be 
among the Senate's highest priorities. The wildfires of 2000 and 2002 
provided a wake-up to the entire country on the critical problems in 
the southwest. The continuing drought in the region only hastens the 
need to address ways to decrease the adverse effects of wildfires.
    Further, we believe the best location for the Institute to be 
located in New Mexico would be New Mexico Highlands University (NMHU).
    There are a number of compelling reasons for placing the New Mexico 
Institute at NMHU. NMHU is the only New Mexico University with a 
degreed Forestry Program. NMHU being located in the north central 
mountains of New Mexico, is ideally located to study fire prevention, 
forest health, forest restoration and the socioeconomics of wildland 
fire. Indeed, several of the recent tragic wildfires, including the 
Cerro Grande Fire, which devastated Los Alamos, were not far from 
campus. Our university has the expertise to address the pressing issues 
associated with fire and forest health issues. Finally, NMHU recently 
established the Watershed and Forest Institute. This project was 
founded to be an educating resource for professionals, policy makers 
and the wider New Mexico community through teaching, research and 
service.
    NMHU believes in collaborative research and outreach. Working with 
like institutions gives the taxpayers a greater return on their 
investment. Senate Bill 32 produces a wonderful opportunity for the 
three Institutes established in this bill to work cooperatively, both 
with each other and with federal agencies. Highlands has recently 
signed a Memorandum of Understanding with the New Mexico State Land 
Office that provides state land for a University Experimental Forest. 
In 1999, a Natural Resources Board of Advisors with members 
representing the New Mexico Forestry Division, the U.S. Forest Service 
as well as other relevant agencies, organizations and individuals, was 
established which has helped guide the program design and direction for 
new curriculum programs.
    Again, we enthusiastically support the intent of this legislation 
and applaud you for recognizing the importance of utilizing the 
universities in the designated states as a valuable element in solving 
this problem. We respectfully request The Southwest Forest Health and 
Wildfire Prevention Act of 2003 [S. 32] be amended in committee stating 
the Institute for the State of New Mexico be located at New Mexico 
Highlands University. This action will serve the legislative intent of 
the bill and will provide the citizens of New Mexico with an Institute 
at a University that is already demonstrating a commitment to 
addressing these important issues even at a time when budgets are 
extremely tight.
            Sincerely,
                                  Sharon S. Caballero, EdD,
                                                         President.
                                 ______
                                 
          Statement of Henry Carey, Director, The Forest Trust

    This testimony is to provide the specific comments of the Forest 
Trust on the bill introduced by Senator Kyl, S. 32, The Southwest 
Forest Health and Wildfire Prevention Act. The Forest Trust is 
supportive of this bill because it addresses a critical need for 
research and applied management guidance to inform forest restoration 
and wildfire prevention activities. However, we have two concerns about 
the bill. First, that the Act does not contain a mechanism requiring 
the Institutes to seek feedback from stakeholders to assure that their 
research is relevant to forest and fire managers and other research 
constituents. Second, that the Act does not specify a competitive 
process for selecting the location of Institutes in New Mexico and 
Colorado.
    The Forest Trust is a forest conservation organization based in 
Santa Fe, NM. The Forest Trust mission is to protect the forest 
ecosystem and improve the livelihoods of rural people. The staff of 15 
includes 7 professional foresters who are actively engaged in forest 
management on public and private lands. The Forest Trust operates the 
Southwest Community Forestry Research Center as a branch of the 
National Community Forestry Center. This research organization is 
funded with a four-year $3.8 million grant from the U.S. Department of 
Agriculture for participatory research in forest-dependent communities.
    The Southwest Community Forestry Research Center has conducted 
extensive outreach in New Mexico and the Four Corners region of 
Arizona, Utah and Colorado to learn the information needs of people in 
forest-dependent communities. On the basis of our outreach we strongly 
agree with the findings of S. 32 which state that scientific 
understanding of landscape scale treatments is limited and that 
rigorous, understandable, and applied scientific information is needed. 
The specific need for applied scientific information is correctly 
identified for three purposes: (1) the design, implementation, and 
adaptation of landscape scale restoration treatments and improvement of 
wildfire management technology; (2) the environmental review process; 
and (3) affected entities that collaborate in the development and 
implementation of wildfire treatment.
    We are particularly concerned that the Institutes be set up to be 
responsive to the needs of land managers and stakeholders. We are also 
concerned that in New Mexico and Colorado, unlike Arizona, no single 
university stands out as the obvious choice to house the institute. 
Therefore, we suggest two modifications to S. 32 as follows:
    Duties include Stakeholder Input. In order to fulfill the purpose 
of developing the practical scientific knowledge required to implement 
forest and woodland restoration on a landscape scale, the duties of the 
Institutes must include seeking input from land managers and 
stakeholders about their research needs. The research centers of the 
National Community Forestry Center, described above, have advisory 
boards composed of scientists and the research constituents. These 
advisory boards play a critical role in guiding the focus of the 
centers' research. Therefore, we suggest that Section 5(c) be modified 
to include a new 5(c)(3) for the formation of advisory boards to 
provide input to the Institutes. We suggest the following language: 
``The Institutes shall form an advisory board of scientists and 
research constituents to advise the Institutes on their annual research 
agenda and to assure that the research will be relevant to end users.''
    Location of Institutes. In New Mexico and Colorado no one 
university stands out as the clear leader in applied ecological 
research. Therefore, we believe that Section 5(b) should be modified to 
require a request for proposal process to allow universities to compete 
to house the Institutes in New Mexico and Colorado. A request for 
proposal process is necessary to ensure that all qualified universities 
have a chance to compete to house the Institutes. The requests for 
proposals should be reviewed by the Secretaries with input from 
stakeholders groups in each state.
    Thank you for considering the comments of the Forest Trust on the 
Southwest Forest Health and Wildfire Prevention Act. The Act will 
address a critical need for research to inform forest restoration and 
wildfire prevention activities.
                                 ______
                                 
Statement of Hal Salwasser, Dean, College of Forestry; Director, Oregon 
  Forest Research Laboratory; Interim Director, Institute for Natural 
                   Resources, Oregon State University

    On July 10, 2002, Senator Gordon Smith and Representative Greg 
Walden of Oregon asked the College of Forestry and the Institute for 
Natural Resources at Oregon State University to ``develop a balanced 
comprehensive report concerning the restoration of post-fire 
ecosystems.'' The request, asked to look not only at ``immediate 
environmental effects of restoration activities, but also at both 
short- and long-term effects of not proceeding with cost-effective, 
post-fire restoration activity on local communities, future forest fire 
danger and forest health.'' The letter also asked to propose new 
studies if needed.
    What follows is a description of how OSU is responding to the 
request. It will take some time to develop all of what the ``report'' 
asked for in the July letter, but there are many things in the works 
while that unfolds. Our faculty and students, working with colleagues 
in state and federal agencies, conservation groups and private 
forestland owners will simultaneously document the state of knowledge 
and technologies as it unfolds in periodic reports.
    The first of these was recently published by the Oregon Forest 
Resources Institute (Fitzgerald, Stephen A. 2002. Fires in Oregon's 
forests: risks, effects, and treatment options). We will convene or 
participate in periodic conferences and workshops to bring the best 
thinking to bear on revising our understanding and priorities, two of 
these are already in planning for Spring 2003 and Fall 2003. Our 
scientists will also work directly with agencies in active adaptive 
management projects (i.e., continuous learning through science-based 
actions, research and monitoring) to solve specific, place-based 
problems created by fuels conditions or the aftermath of large fires. 
We will propose for Congressional consideration a focused, long-term, 
interagency research, development and application program for Oregon 
that could and we believe should be replicated in other western states 
if new funding tied to the National Fire Plan materializes.
 context for decision making on forest and rangeland health treatments
    It is clear to most scientists and forest managers that the most 
important steps in restoring forest and rangeland ecosystem health 
start well before a fire or other disturbance event occurs. Pre-fire 
treatments should not only contribute to reduced fire risk, but when 
the fires do occur they should be less intense, less dangerous to life 
and property, and less expensive to manage. They should also make post-
fire restoration work unnecessary or less likely to cause unacceptable 
environmental damage. Therefore, pre-fire activities must be considered 
in developing an appropriate context for post-fire restoration.
    On August 30, 2002, Dean and Institute Acting Director Salwasser 
visited with Dr. Don MacGregor of Decision Research in Eugene, Oregon 
to discuss this and several related projects. On September 4, 2002, he 
visited with leaders of the Forest Service, Bureau of Land Management 
and USGS in Portland. Subsequent input was solicited and received by 
forest ecologists (Nancy Diaz, Tom Atzet), decision scientists (Don 
MacGregor), forestland managers (Ross McKinley), and conservation 
scientists (Dominick DellaSala). This document reflects their input but 
I did not ask them for endorsement of all of its parts.
    The following notes reflect findings related to the preliminary 
work requested in its larger context of decision making for 
comprehensive ecosystem restoration. We will continue with further 
review and refinement as we shape the first action items, site visits 
and science/management workshops planned for winter thru fall 2003 at 
OSU and elsewhere.

                 A FRAMEWORK FOR CONTINUOUS IMPROVEMENT

    1. Link all Action Directly to the National Fire Plan, Joint Fire 
Sciences Program, and 10-Year Comprehensive Strategy Implementation 
Plan. The National Fire Plan developed and endorsed by federal agencies 
and the Western Governor's Association provides a blueprint for action 
related to forest and rangeland health and wildfire and the general 
processes to follow. The 10-year Comprehensive Strategy Implementation 
Plan has goals and tasks directly related to restoration. If these have 
been tailored to specific landscapes to form what amounts to an annual 
plan of work with specific objectives and measurable outcomes for both 
public and private lands that is a step that would not have to be done 
again.
    As work progresses, we will try to determine the degree to which 
regional or local application of the Fire Plan and 10-year strategy has 
been done. One reviewer noted that virtually no guidelines exist for 
the development of local unit fire, fuel, or restoration management 
plans. As a result, we could find that almost anything could qualify as 
a fire., fuel, or restoration management plan. If so, a template or 
framework might be needed for local fire, fuel, or restoration 
management plan development.
    2. Landscape-scale Ecological Assessments. Whether management 
actions under the Fire Plan are considered prior to or after fire, the 
fundamental challenges start with understanding the ecological 
characteristics and temporal and spatial dynamics of the forests and 
rangelands in question, at a landscape to regional scale not just 
stand-by-stand or watershed-by-watershed. This means the structure, 
species composition, patterns and history of events, and management 
actions and processes that caused those characteristics and their 
dynamics, including fires, droughts, insect and pest infestations, 
human activities, and climate change. Ownership is also an important 
variable.
    Ecological characteristics vary widely across forest and rangeland 
types and conditions. A sustainable fuel management or ecosystem 
restoration strategy must build from this understanding appropriate to 
ownerships, types, and conditions. Just considering the potential 
impacts of action or no action at the site, stand, or watershed scale 
is not ecologically meaningful in dynamic landscapes. Nor is restoring 
a forest condition to fire-resilience, only to let it lapse again into 
a high-risk fire-prone forest.
    There is potential to add value to existing programs by describing 
how a landscape-scale ecological assessment could be done in an 
expeditious manner. Such an assessment would form the foundation for 
the collaboration process described below. Especially important would 
be the characterization of events and actions that influenced existing 
conditions and trends and characterization of risks and actions that 
influenced existing conditions and trends and characterization of risks 
and uncertainties posed by those conditions and trends. USGS/BRD/ITR-
2002-0003 ``Research Plan for Lands Administered by the USDI in the 
Interior Columbia Basin and Snake River Plateau'' has been suggested 
for review.
    3. Collaboration on Desired Future Conditions. Given the above 
understanding, managers engage affected people, e.g., citizens, 
neighbors and other state and federal agencies, to determine the 
desired conditions and rates of healing processes for forests and 
rangelands in the landscapes in question. These conditions must account 
for water quality, fish and wildlife habitats, wood yields, aesthetics, 
soil fertility, forest and rangeland productivity, and economic and 
community contributions desired from the area as well as the 
vulnerability of the lands to future fires, drought, invasive species 
and pest epidemics, vulnerabilities that put the other wildland values 
and uses at risk.
    It is also important to link the development of desired future 
conditions to state plans for watershed health, such as the Oregon Plan 
for Salmon and Watersheds and to land management plans of federal and 
state agencies, tribes, and private landowners.
    Desired future conditions will differ widely and by ownership and 
forest type: from what is appropriate in wilderness areas to the 
wildland-urban interface, with private lands whose goals include the 
production of wood or other natural resources included. What this means 
is that there cannot be a ``one-size-fits-all'' set of guidelines or 
principles to use everywhere, for either fire risk reduction or desired 
post-fire conditions or the management actions to achieve them. For 
this reason we do not consider it useful or appropriate to try to 
revise or rewrite papers on general principles or guidelines for 
specific practices to apply across the landscape. At best, such 
guidelines should only address things to think about when planning 
projects and should never prescribe generic activities or lack thereof. 
Rather, we will work on procedures to follow for site and landscape 
specific activities that address problems at hand.
    The fundamental step in determining appropriate management actions 
is to clearly describe the problem(s) to be solved. If there is no 
problem--that is desired conditions will be met by nature's processes 
without management actions--the fuel reduction or restoration task is 
over. There must be compelling reasons for action, and those reasons 
could be ecological social or economic.
    4. Develop Regional and Local Restoration Objectives (and 
Priorities). Based on desired future conditions, what the specific 
problem is, and processes and priorities for where to take action, 
especially the reduction of risks to private property, communities, 
watersheds and other resource values, and conditions and processes that 
will restore ecosystem resilience and productivity, the management job 
is to remove impediments to those conditions and return ecological 
processes and management actions that will sustain the desired 
conditions and their social contributions in the most cost effective 
and economically beneficial way. These amount to the objectives for 
which management actions or lack thereof would be designed.
    Existing federal forest plans set objectives for desired conditions 
based partly on goals for water, fish, wildlife, wood, and old forest 
structure and partly on the ecological understandings, management 
technologies, and citizen expectations of the 1980s and 1990s. In many 
cases, these plans did not account for risks posed by wildfire, 
drought, pests, or climate change, as we now understand them. Nor did 
they account for some of the knowledge and technologies now available. 
Furthermore, we need new knowledge and technologies for use in 
management situations that differ greatly from traditional timber 
sales. In some cases, such as where large fires burned this year, 
ecological conditions assumed by those plans may now warrant 
reassessment of roles to be played by recently burned landscapes. 
Consequently, forest plans might be out of date with today's risks, 
knowledge, new conditions, and new technologies.
    The revision of land and resource management plans is a policy task 
that could run in parallel to the R&D work needed. The two tasks should 
be kept separate to minimize confusion between the political process of 
planning and the practical, learning process of actually restoring 
forests and rangelands through active adaptive management (to be 
described below).
    5. Design Creative Management Alternatives and Assess Likely 
Consequences. There is always more than one way to meet objectives and 
reach desired forest and rangeland conditions. Thus, managers and 
affected people must consider the comparative risks to those 
conditions, uncertainties, and financial resources available to address 
those risks and uncertainties and how those might vary over time under 
a reasonable array of management alternatives. These management 
alternatives will include variable costs and actions based on knowledge 
and technologies not available or not well understood when reports were 
done in the mid 1990s. They will also entail the need for new 
technologies, more appropriate to the nature of the management 
challenges of fuels reductions or post-fire restoration.
    Meetings in Eugene and Portland affirmed that assessment of risks 
and uncertainties under various alternatives is definitely a place 
where new scientific and technology work is needed. Vegetation 
management tools and contract protocols useful for timber sales in 
times past are not appropriate to the kinds of work to be done in the 
future, thus requiring research and development on harvesting 
technologies and contract mechanisms suited to small diameter trees, 
brush and low cost operations.
    There is also a fundamental lack of structured science to 
understand the efficacy of pre-fire thinning on fire behavior and the 
effects of post-fire restoration on ecosystem recovery, including 
effects on future fires (Omi and Martinson 2002 is the exception). This 
includes effects of fire suppression activities on post-fire ecosystem 
recovery and the history of results with past management actions to 
avoid repeating mistakes. Anecdotal evidence abounds and we have more 
from this year's fires. One Portland participant suggested that a grand 
synthesis of what is known could help. This prospectus lists several 
major sources for such a synthesis. Several participants thought a 
Science Panel at a public forum such as a university, after the fires 
are out would be a good idea to share what is known and what is not 
known about restoration.
    Several Portland participants cited the need for outreach and 
technology transfer of what is known. Retrospective studies could also 
help improve understanding but there is a large need for applied 
research to test out the unknowns. The Fire and Fire Surrogates 
research proposed under the National Fire Plan and Joint Fire Sciences 
Program would be logical places to look or expand from. Several 
participants in Portland said that new field studies are sorely needed. 
The RFP for the Fire Plan sought such studies but good proposals were 
lacking so funding went to stronger projects in other areas. There is 
very little science on post-fire salvage logging effects (hence the 
conservative approaches recommended by several recent studies and 
reports). It is not possible, nor desirable, to wait for more studies 
before taking management actions. Therefore the only way to do science-
informed ecosystem restoration is to do the science as an integral part 
of active adaptive management (the final item in this list).
    As with every choice people face, there are consequences of action 
and consequences of inaction regarding fuels treatments or post-fire 
restoration. An assessment should elucidate these consequences for each 
alternative with as much site specificity as possible for forest and 
rangeland health issues and for economic issues.

Forest and Rangeland Health Consequences of Action Alternatives and 
        Inaction
            Economic Issues
  <bullet> Water quality as it relates to Clean Water Act standards and 
        aquatic-species habitat
  <bullet> Soil erosion effects on site fertility and sediments to 
        streams
  <bullet> Habitat conditions in the near and long term for listed 
        species of native plants and animals
  <bullet> Vulnerabilities to invasive species of plants or animals
  <bullet> Vulnerabilities to insect and disease pathogens
  <bullet> Likelihood of near and long-term vegetative recovery to 
        desired stand and landscape conditions with regard to species 
        composition and structure
  <bullet> Near and long-term resilience and/or resistance of forests 
        and rangelands to future disturbance events such as fire and 
        storms
  <bullet> Effects of the fire the ability of the federal agencies to 
        achieve the objectives of the Northwest Forest Plan;
  <bullet> Effects on road system management.
Economic Consequences of Action Alternatives and Inaction
  <bullet> Risks posed by near and long term forest and rangeland 
        conditions on adjoining property and residences related to 
        future fire, insects, disease, or invasive species
  <bullet> Local and regional capacity for future wildland and fire 
        management
  <bullet> Revenues to counties and local businesses produced or 
        foregone
  <bullet> Total value of marketable resources produced or foregone
  <bullet> Social quality of life, recreation programs, aesthetics, as 
        impacted by treatment, delayed treatment and no treatment, with 
        special attention to the effects of brushfields replacing 
        burned forests.
    For each of these issues, consequences of delay in action for 1-3 
years should also be explained.
    6. Structured Decision Analysis. The next step, the one where 
gridlock seems to have set in, is to make decisions that strike 
appropriate balances when the risks to different resources conflict and 
uncertainty abounds, as is often the case when forests, fish, wildlife, 
water, air quality, and wildfire intersect. This requires a decision 
making process or protocol that explicitly arrays and evaluates risks, 
uncertainties, costs, and benefits for the different resources in 
question, that is it evaluates the likely consequences of the 
alternatives. Tradeoffs are inevitable in wildland resource decisions. 
Aversion to risk for one resource in the short run can mean acceptance 
of high risk to other resources or even high risk to the first resource 
at a later time. Science can only inform parts of the complexity that 
characterizes these decisions; value judgments and subjectivity must be 
openly described. Coping strategies for wicked problems (Roberts 2001) 
might be useful tools.
    Honest and open characterization of tradeoff's and how 
subjectivity, uncertainty and risk are handled in decision-making are 
vital to public understanding and support. This step in particular is 
where oral agencies could benefit from new approaches. In the absence 
of structured decision analysis, the precautionary principle appears to 
be the deciding factor on risk--in the absence of certainty that 
proposed actions will not cause harm to a particular resource value in 
the short run or that they will improve future conditions, do not take 
the action. The line between hard facts, myths, and soft values is 
often difficult for publics and some scientists to see. This leads to 
inevitable debates over the meaning and interpretation of science. USGS 
is currently pursuing development of tools and skills in decision 
analysis with Dr. Larry Susskind and Consensus Building Institute.
    7. Project Design. Once decisions are made, the key task is to 
design restoration, rehabilitation, or fuels reduction projects to gain 
an acceptable balance between their costs and the benefits returned, 
both broadly defined. Ideally, but certainly not in all cases, the 
management activities can generate revenues to cover parts or all of 
the costs of restoration. This would allow general treasury funds to be 
more broadly leveraged in getting more work done.
    A Portland participant suggested that the old systems for planning, 
analyzing and costing out projects where commercial timber sales were 
the goal was not workable in the current context of ecological 
restoration with low to no commercial values to be gained. Traditional 
timber sale contracts are not very useful for restoration projects. Nor 
is the technology developed for use in timber sales where machinery had 
to accommodate large diameter trees and is thus over-designed for new 
work on smaller diameter materials. Designs for cost reduction rather 
than profit maximization are needed. Options for commercial use of 
restoration byproducts is also a possible area for new work. Further, 
new technologies for getting work done with less environmental impacts 
either exist or could be developed. These were not available when 
assessments of salvage logging and post-fire restoration were done in 
the mid 1990s. Suggestion was made to look at what Joint Fire Sciences 
Program has underway here. Also need to explore impacts of non-native 
plants used in post-fire rehabilitation projects.
    Development of project templates to assist field managers in 
project design following direction from pending legislation regarding 
healthy forests might be needed to improve project quality and 
consistency with best knowledge and technologies.
    8. Integrate Application (i.e., projects performed under the 
National Fire Plan's 10-Year Comprehensive Strategy Plan or proposed 
Healthy Forests Initiative) with Research, Development, Outreach and 
Monitoring. The final task is to integrate outreach, research, and 
monitoring into regional restoration strategies so that existing 
knowledge and technologies are effectively used, so that new knowledge 
and technologies are gained, and so that uncertainties can be reduced 
over time allowing for adjustments to improve the effectiveness and 
efficiencies of treatment activities. The integration of outreach, 
monitoring, research and adaptive management into comprehensive 
restoration strategies might require stronger central leadership and 
commitment to interagency action than agencies have envisioned to date. 
This is the substance of the suggested actions below.
    The 8-step framework or procedure for forest restoration decision 
making described above provides a context for determining appropriate 
management actions both prior to and after fires; it replaces a one-
size-fits-all approach that uses general principles or guidelines with 
ecologically-based site and landscape specific strategies that address 
the environmental, economic and social dimensions of our western forest 
and rangelands. But, to improve performance, it must also (1) lead to 
expedited decisions and resulting actions, (2) improve the 
effectiveness of public participation in planning and project 
implementation, and (3) create a learning process that ties project 
design (i.e., application) to monitoring, research, and active outreach 
(i.e., technology transfer). For long-term success, this process must 
be carried out at a regional or landscape scale so that individual 
projects have a suitable context and can be carved out without the 
costly and time consuming comprehensive analyses currently called for 
in each project. Further, these projects should be designed and carried 
out with the continuous improvement process in mind, i.e., they are 
linked to monitoring and research strategies. This could all logically 
become an integral part of implementing the parts of the National Fire 
Plan that deal with rehabilitation, restoration, hazardous fuels 
reduction, monitoring and research. It could also link to state plans 
for watershed health and their research and monitoring.
    Any work on parts or all of the above framework will require teams 
of experts from both science and management in both public and private 
sectors relevant to the breadth of the work, most likely drawing from 
the fields of decision analysis, risk assessment, soils, water, fish 
and wildlife, forest ecology and restoration, fire ecology, 
silviculture, economics, logging and forest operations, roads, and 
sociology. The teams should be comprised of agency, private sector and 
academic scientists and managers to ensure both scientific validity and 
practicality of results. This would apply first, to the synthesis of 
existing knowledge, the retrospective studies (which will take several 
years), and the new R&D on efficacy of pre and post fire activities 
(this is probably a 10 year major Research, Development and Application 
program).

Suggested Course of Action
    a. Facilitate scientist-manager interactions on recently burned 
areas to develop ideas for collaborative work that would address 
various aspects of the above framework. This has begun in Oregon, 
probably in all the other western states that experienced fires this 
summer as well. Clearer understanding of challenges and possible case-
by-case work should emerge from these visits. An example of this is the 
November 16-17, 2002 visit to the Biscuit fire by OSU and FS scientists 
at the request of local federal agency officials.
    b. Convene science and management workshops at one or more 
universities beginning winter or spring 2003 to synthesize existing 
knowledge and technologies pertinent to parts or all of the above 
framework (initial focus should be on post-fire restoration and 
decision analysis to integrate our state of knowledge and technologies 
with case applications to restoration following 2002 fires, e.g., 
Biscuit, Tiller, Hayman, Rodeo-Chediski, and others that provide 
distinct opportunities to evaluate and understand fire behavior in 
response to fuels treatments or post-fire restoration projects). 
Coordinate with a workshop being planned for Corvallis in mid-March 
2003 by the Joint Fire Sciences Program and with the Risk Conference 
planned for Portland in November 2003 and other topical conferences 
being planned for the coming year. Funding is being secured for these 
workshops and conferences.
    c. Based on products from the initial site visits and workshop 
syntheses and subsequent program results, develop protocols for place-
based restoration strategies (i.e., no standard guidelines for use in 
all places) and carry out active and extensive outreach and technology 
transfer to give publics and managers access to and understanding of 
the state of knowledge and technology using Extension Faculty, State 
Service Foresters, and federal agency technology transfer specialists. 
This would begin following the workshops, in 2003 and continue through 
2015 if the following large-scale R&D proposal comes to being. Funding 
needed would depend on how aggressive the outreach program is. We 
opened discussion with the Oregon Forest Resources Institute in 
December 2002 to initiate the outreach education program in 2003.
    d. See the attached FIRE prospectus for a bold proposal for a 
research, development, and application program that would require 
Congressional support to initiate.
    e. Hold annual conferences to review and present progress. Publish 
periodic newsletters and hold regular field tours to convey new 
knowledge and technologies. Publish handbooks and field guides as new 
knowledge and technologies come on line.
    The July 10 letter asked about other sources of information on the 
topic of post-tire ecosystem restoration. In addition to the report 
prepared by Dr. Beschta and his colleagues in 1995, there are excellent 
sources of information pertinent to the general subject of restoring 
ecosystem health, including the multi-volume Eastside Forest Ecosystem 
Health Assessment compiled in 1994 by Dr. Richard Everett of the Forest 
Service Pacific Northwest Research Station, a report done by Dr. Norm 
Johnson and colleagues for Governor John Kitzhaber in 1995, the 
Interior Columbia Basin Ecosystem Assessment in 1996, the 1996 Blue 
Mountains ecosystem health synthesis report edited by Drs. Ray Jaindl 
and Tom Quigley, the 1997 Sierra Nevada Ecosystem Project, a General 
Technical Report on the environmental effects of post-fire logging done 
by Forest Service Research in 2000, the book Mapping Wildfire Hazards 
and Risks edited by Neil Sampson, Dwight Atkinson and Joe Lewis in 
2000, and a 25 chapter special issue of Northwest Science edited by Dr. 
Jane Hayes in 2001 that synthesized forest health and productivity 
issues in eastern Oregon and Washington. Private forestland owners 
should also be encouraged to provide results of their work. Recent 
studies from the National Fire Plan and Joint Fire Science Project 
could add new information. The proposed Winter-Spring 2003 science and 
management workshops would build from the foundation of these reports.

         Fire Intensified Research and Education (FIRE) Program

    Funding Requested: 10% of total federal appropriation each year to 
forest and rangeland health and fire management work, est. $8-12 
million per year for 12 years.
    Likely Sources of Federal Funds: Specific authorization in 
``Healthy Forests'' legislation related to the National Fire Plan or 
Joint Fire Sciences Program through the USDA Forest Service and the 
USDI USGS, followed by annual appropriations under the National Fire 
Plan.
    Summary: In 2002, between January 1 and September 27, 2,300 
wildfires burned through 1,012,828 acres in Oregon. The total cost of 
suppressing these fires is still being determined but state costs are 
estimated to be over $59 million and costs to the USDA Forest Service 
and other federal partners will be in excess of $319 million. Although 
the loss of such resources as timber, property, and habitat for species 
at-risk (e.g., northern spotted owl) has not been estimated, it surely 
will be in the hundreds of millions of dollars. Moreover, many experts 
believe that ``catastrophic'' wildfire seasons such as the one just 
experienced will continue in the future at huge costs to society.
    Although scientists nationwide are making important contributions 
to our understanding of fire science and related disciplines through 
the National Fire Plan (NFP) and the President's Healthy Forests 
Initiative (HFI), an intensified, long-term, focused research and 
education program tailored to local needs in areas with high wildfire 
risk is needed to fulfill the expectations articulated in the NFP and 
the HFI. The problems confronting local resource managers following the 
2002 wildfire season are complex (e.g., the Biscuit Fire in 
Southwestern Oregon) and are likely to reoccur if steps are not taken 
to provide a focused research and education program tied directly to 
investments made in fuels treatments or post-fire restoration 
activities. To meet these challenges and minimize future catastrophic 
wildfires, resource managers in areas with high wildfire risk need 
scientists and educators to work in partnership with them to address 
local conditions and their specific needs in an adaptive management 
approach, learning by doing linked to research. The Fire Intensified 
Research and Education (FIRE) Program will meet this need.
    Experiences in Oregon have demonstrated that programs integrating 
fundamental and adaptive research with extended education, conducted in 
close cooperation with local resource managers, can be very successful. 
A key ingredient to success is placing interdisciplinary teams (if 
scientists in local communities where problems are most pronounced. 
This facilitates cooperative; partnerships, sharpens research to 
address local needs, and reduces the time necessary to implement 
research results. This was clearly demonstrated by the Forestry 
Intensified Research (FIR) Program (1978-1991) and the Coastal Oregon 
Productivity Enhancement (COPE) Program (1987-1999). These programs 
provide a model of interagency collaboration in research and education 
to meet the most pressing information needs of resource managers, 
regulators, policy makers, and operators. But the funding mechanism 
used in FIR and COPE, earmarks to federal appropriations that 
redirected existing research dollars to the university, is not 
desirable. Building on these successes of interagency science 
partnerships and proposing a different funding model, the FIRE Program 
will provide research-based information focused on local needs 
determined by local information users and scientists working together 
as managers solve actual problems. Like the FIR and COPE Programs, a 
FIRE cornerstone will be continuous involvement of resource managers, 
regulators, policy makers, and operators from diverse public and 
private organizations throughout the duration of the program. Unlike 
FIR and COPE, research funding would come from an authorized portion of 
total appropriations for fuels management treatments, fire management, 
and post-fire restoration work.
    The Plan for the FIRE Program in Oregon is a model that could and 
should be replicated in other western states. In Oregon the model calls 
for the establishment of four interdisciplinary, interagency teams of 
scientists with one team located in each of the following areas: 
Southwestern Oregon, east slope of the Cascade Mountains, Northeastern 
Oregon, and Corvallis. The Corvallis team will conduct research 
requiring sophisticated laboratory and analytical facilities. Teams 
will conduct research as integral parts of fuels and post-fire work, 
thus facilitating the needed land treatments in a learn-as-you-go mode. 
Extended education programs will transfer knowledge and technology 
beyond where the research is occurring. Collaboration among teams will 
be essential. Strong ties with county extension natural resource agents 
and practitioners will be established to strengthen research and 
extended education programs. The FIRE Program will have a 12-year 
duration.
    The Goal of the FIRE Program is to develop new information and 
technology as an integral part of addressing fuels, fire and post-fire 
management work. These practical, yet science-based knowledge and 
technologies for public and private forest and rangeland resource 
managers, regulatory agencies, policy makers, operators, and local 
manufacturers will enable them to better prioritize and understand 
potential management and policy options, and related risks, benefits, 
and costs associated with pre-fire management practices and post-fire 
restoration actions in fire-prone environments. Key elements of this 
goal are information tailored to local needs and the rapid 
communication of research results. To accomplish this goal, FIRE 
scientists will focus on five broad objectives.

  <bullet> Develop information on fundamental aspects of fire ecology 
        and the influences of fire, fire management, and restoration 
        activities on biota, physical resources, and communities.
  <bullet> Develop and evaluate pre-fire stand and landscape practices 
        and technologies that change the probability, behavior, and 
        subsequent adverse effects of stand-replacing wildfire in 
        forest and rangeland ecosystems.
  <bullet> Develop and evaluate stand and landscape practices and 
        technologies for forest and rangeland restoration following 
        wildfire. Such practices will promote long-term recovery of 
        desired forest and rangeland conditions while minimizing short-
        term environmental degradation. This would also include the 
        identification and evaluation of treatment cost recovery 
        opportunities, such as harvest of fire damaged trees that are 
        consistent with land management goals and community needs.
  <bullet> Develop a decision-making protocol or process for structured 
        decision analysis that describes and evaluates the different 
        risks, uncertainties, costs, benefits, and other factors 
        associated with various alternative technologies, management 
        actions and policies.
  <bullet> Shorten the time to communicate research-based information 
        and insure it is user-friendly.

    Partnerships and Collaboration for the Oregon Model: Oregon State 
University (OSU), the USDA Forest Service Pacific Northwest Research 
Station (PNW Station), and the USGS Forest and Rangeland Ecosystem 
Science Center (FRESC) have a long history of successful collaboration 
on large, integrated research and education programs involving multiple 
partners (e.g., FLR and COPE Programs). Research and education projects 
conducted under the FIRE Program will be integrated with ongoing OSU, 
PNW Station, and FRESC projects to avoid unnecessary duplication and 
broaden the scope and effectiveness of existing efforts designed to 
address fire-related issues. This is particularly true in the case of 
the PNW Station, which recently expanded its fire research and 
development program in response to the NFP and the HFI. The FIRE 
Program will complement existing research and education efforts of all 
three organizations by adding a much-needed, long-term local dimension 
and intensifying the integration of research and education efforts with 
resource management actions. OSU partners will include faculty and 
students in the College of Agricultural Sciences and possibly the 
College of Science and College of Liberal Arts. There is also the 
strong likelihood of collaboration with OSU's Cascade Campus, Eastern 
Oregon University, Southern Oregon University, other state and federal 
agencies, and the private sector.
    Matching Funds: Salaries of tenured/tenure-track faculty and 
permanent scientists, and infrastructure/facilities/equipment of 
cooperating OSU units and partner institutions (e.g., PNW Station, 
FRESC).
    Relevance to OSU's Mission: This proposal is consistent with the 
University's mission. More specifically, it directly contributes to the 
three strategic goals for the University (i.e., statewide campus, 
compelling learning experience, top-tier university). OSU is recognized 
throughout the world as a leader in natural resources research, 
education, and public service. The FIRE Program will enhance this 
stature while addressing a serious Oregon problem.
    Overall Value to Programmatic Goals: In addition to the three 
strategic goals for the University, the FIRE Program will directly 
address an important College of Forestry strategic goal: develop 
collaborative and interdisciplinary approaches to address complex 
issues through teaching, research, and extended education. The FIRE 
Program will also establish OSU as a leader in fire-related adaptive 
management research thus better enabling the University to broaden 
educational programs and increase enrollment.
    Determination of Need for Phased-in Federal Funding: Given the 
magnitude of the problem, federal funds are needed to support the 
program. Initial funding in FY04 would be on the order of $8 million 
for the Oregon model. This funding would be administered by the 
cooperating agencies and would be in addition to appropriations already 
planned for fire-related research. The total amount would increase to a 
maximum of $12 million in FY06 and would be maintained annually through 
FY13. Starting in FY14, funding will decrease until a minimum of $8 
million is reached in FY15. Funds would be allocated annually among the 
three principal organizations conducting the FIRE Program (OSU, PNW 
Station, FRESC).
    Implementing Mechanism: The most appropriate approach to initiating 
this proposal is to work with the Oregon (and other western) 
Congressional delegation to obtain specific language in authorizing 
legislation related to the President's Healthy Forests Initiative. OSU 
should develop a common strategic approach to this initiative with the 
PNW Station and FRESC in Oregon and work with similar coalitions in 
other western states to obtain a network of ``FIRE Centers'' throughout 
the west.


</pre></body></html>
